Case: 19-30340

Document: 00515567459

Page: 1

Date Filed: 09/16/2020

tHniteti States Court of Appeals
for tfjc jftftfj Ctrtutt
No. 19-30340
A True Copy
Certified order issued Sep 16, 2020

Allen Snyder,

W. OoujU
Clerk
k, U.S. Court of Appeals, Fifth (

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeals from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:17-CV-7071
ORDER:
Allen Snyder, Louisiana prisoner # 169143, moves for a certificate of
appealability (COA) to appeal the denial of his 28 U.S.C. S 7.7.S4 application
in which he challenged his conviction for second-degree murder. Snyder also
moves for leave to proceed in forma pauperis (IFP).
Snyder argues that his trial counsel rendered ineffective assistance for
failing to challenge whether there was gender discrimination in the selection
of the jury; allowing the State to offer the prior testimony of a witness, who
was unavailable at the instant trial and whom his counsel did not crossexamine at the previous trial, in violation of his right to confrontation; and
making oral requests to continue the trial. He also asserts that his appellate

appendix

A

A A

I

I

Case: 19-30340

Jocument: 00515567459

Page: 2

Date Filed: 09/16/2020

No. 19-30340

counsel was ineffective for not arguing on appeal that his trial counsel was
ineffective for orally requesting continuances. Finally, he maintains that he
improperly was denied a copy of the record. To the extent that Snyder raised
other claims in the district court, he has abandoned them by failing to brief
them or briefing them insufficiently. See Hughes v. Johnson, 191 F.3d 607.613
(5th Cir. 1999).
To obtain a COA, a petitioner must make “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. 6 22.S3fcV7.T- Miller-El v.
Cockrell, 537 U.S. 322r 336 (2003). A petitioner satisfies this standard by
showing that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
raised deserve encouragement to proceed further. Miller-El, 537 U.S. at 327.
Where the district court denied relief on the merits, a petitioner must show
that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong. ” Slack v. McDaniel, 529 U.S. 473.
484 (2000).
Snyder has not made the required showing. Therefore, his motion for
a COA is DENIED. His motion for leave to proceed IFP is also DENIED.

/s/ Leslie H. Southwick
Leslie H. Southwick
United States Circuit Judge

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLEN SNYDER

CIVIL ACTION

VERSUS

NO.

PARREL VANNOY, WARDEN

SECTION: "B"(l)

17-7071

ORDER AND REASONS
Before

the

Court

are

the

Magistrate

Judge's

Report

and

Recommendation to Dismiss Petitioner Allen Snyder's Request for
Habeas Corpus Relief (Rec. Doc. 13) and Petitioner's Objections to
the Report and Recommendation (Rec. Doc. 14). Accordingly,
IT IS ORDERED that Petitioner's Objections are OVERRULED and
the Report and Recommendation are ADOPTED as the Court's
Opinion, dismissing the captioned Section 2254 action for relief.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY
Petitioner Allen
at

the Louisiana

Rec. Doc. 13 at 1.
by

a

Snyder

is

a state prisoner

State Penitentiary in Angola,
In 1996

twelve-member

jury

of

first

sentenced to death.

3d

(5th Cir.

States

3

372

Louisiana.

See

petitioner was originally convicted

subsequently
370,

incarcerated

2013) .

degree

See State v.

However,

Supreme Court

APPENDIX

in

murder

Snyder,

2008,

the

and

12 8 So.
United

reversed the judgment and remanded the matter after

finding a

Batson violation.1 See Snyder v. Louisiana, 552 U.S. 472 (2008).
On January 29,

2009,

second-degree murder.
(5th Cir.
evidence

2013).
of

a grand jury indicted petitioner

See State v.

Snyder,

128 So.

for

3d 370, 372

The State also filed notices of intent to use

other

hearing2 was held,

crimes.

See

id.

and on May 27,

On May

2 010,

4

2010,

a

Prieur

the motion was granted.

See id. Petitioner was denied review of that ruling and trial began
in

2012.

See

id.

At

trial,

the

jury

heard

testimony

from

defendant and his ex-wife as well as saw medical records that were
introduced into

evidence.

See

id.

at

373-75.

Testimony

and

evidence showed that petitioner and his ex-wife had a troubled
marriage

in which petitioner was

jealous

and controlling.

See

id. at 373. According
1 On August 29 1996, petitioner was convicted of first degree murder. On August
22, 1997, petitioner was sentenced to death. On April 14, 1999, the Louisiana
Supreme Court conditionally affirmed the conviction and sentence but remanded
the matter to the lower court for an inquiry into petitioner's competence
at the time of trial. After determining that Petitioner was in fact
competent at the time of trial, the state Supreme Court affirmed the conviction
and sentence.
In June 2005,
the United States Supreme Court granted
petitioner's petition for a writ of certiorari, vacated the judgment and
remanded the case to the Louisiana State Supreme Court for consideration of
petitioner's Batson claim. On remand, the state Supreme Court found no merit in
petitioner's
claims
and again affirmed his
conviction
and
sentence.
Nevertheless, on March 19, 2008, the United States Supreme Court reversed the
judgment and remanded the matter after finding that the
trial
court
committed error in rejecting Petitioner's claim that the prosecution
exercised peremptory challenge based on race in violation of Batson. On April
30, 2008, the Louisiana Supreme Court set aside the conviction and sentence
and remanded the matter. See Rec. Doc. 13 at 1-2.
2 A Prieur hearing requires that before evidence of other crimes are introduced,
the trial court must determine that the extraneous acts are probative of a real
issue and that their probative value exceeds their prejudicial effect. The
party seeking to introduce such evidence must show the requisite for it at a
hearing outside the presence of the jury. See State v. Taylor, 217 So. 3d 283,
291 (La. 2016).

2

to the evidence, the jealousy escalated to physical abuse3 causing
See id. However,

the ex-wife to. eventually move out.
Petitioner

wanted

to

in

1995,
See

id.

Nevertheless,

petitioner found his ex-wife with another man,

the

victim,

eventually

and

reconcile

engaged

with

in

an

his

ex-wife.

altercation

in

which

petitioner stabbed the victim nine times and his ex-wife 19 times.
See id. at 374-75.
On February 2,

2012

the jury found petitioner guilty as

charged. Petitioner was sentenced to life imprisonment. See id. at
373.

The Court

sentence.

of Appeals

affirmed petitioner's

conviction and

The Louisiana Supreme Court denied his related writ

application. See id. at 383; State v. Snyder, 138 So. 3d 643 (La.
2014). Petitioner unsuccessfully sought post-conviction relief in
the state courts. See Rec. Doc. 13.
On July 24, 2017, petitioner filed the instant federal habeas
corpus

application

alleging

that

he

received

ineffective

assistance of counsel at both the trial and appellate levels. See
Rec.- Doc. Nos.
response

in

1,

3. On November 3,

opposition

to

the

habeas

2 017

respondents filed a

petition

arguing

that

petitioner's claims were procedurally barred. See Rec. Doc.
November 13, 2017

the

11. On

Petitioner filed a reply. See Rec. Doc. 12. On

3 ^According to the record, petitioner shoved his ex-wife's head into the car
window, struck her with a baseball bat while she was sleeping, drove her to an
isolated location, opened his trunk, and threatened her, slammed her head into
the wall causing serious injuries, and stabbed her nine times in the neck, head,
and arms. See State v. Snyder, 128 So. 3d 370 (5th Cir. 2013).

3

September 7, 2018, the Magistrate Judge reviewed the petition and
recommended it be dismissed with prejudice. See Rec. Doc. 13. On
September 18, 2018, Petitioner filed his objections to the Report
and Recommendation. See Rec. Doc. 14.
A. 28 U.S.C. § 2254- General Principals
The Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA") controls review of this 28 U.S.C. § 2254.habeas corpus
petition. See Poree v. Collins, 866 F.3d 235, 245 (5th Cir.

2017)

("Federal habeas proceedings are subject to the rules prescribed
by the Antiterrorism and Effective Death Penalty Act . . .") . Under
§ 2254, an application for a writ of habeas corpus may be denied
on the merits

even if an applicant.has failed to exhaust state

court remedies.
F.3d 285

299

See 28 u;s.C.

§ 2254(b)(2); Jones v. Jones,

163

(5th Cir. 1998). Enacted as part of the AEDPA, the

amended subsections 2254(d)(1)

and (2) provide the standards of

review for questions of fact, questions of law, and mixed questions
of both.
For pure questions of fact, factual findings are presumed to
be correct. See 28 U.S.C. § 2254(e) (1) ("In a proceeding instituted
by an application for a writ of habeas corpus ... a determination
of a factual issue made by a State court shall be presumed to be
correct.").

The

applicant

has

the

burden

of

rebutting

presumption by clear and convincing, evidence. See id. However

the
a

writ of habeas corpus may be granted if the adjudication of the
4

'

claim on the merits "resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. " 28 U.S.C. § 2254 fed) (2);
Hankton v. Boutte, 2018 U'.S. Dis-t. LEXIS 126899 *1

*10 (E.D. La

June 29, 2018).
For pure questions of law and mixed questions of law and fact,
a state court's determination is reviewed under § 2254(d) (1) . See
Hill v.

Johnson,

210 F.3d 481,

485

(5th Cir.

2000).

For mixed

questions, a state court's determination receives deference unless
the decision was either contrary to federal law or involved an
unreasonable application of federal law. See § 2254(d)(1);

Hill,

210 F.3d at 485.
A state court's decision is contrary to federal law if

(1)

the state court applies a rule different from the governing law
set forth in the Supreme Court's cases or

(2)

the state court

decides a case differently than the Supreme Court when there are
"materially indistinguishable facts." See Poree, 866 F.3d at 246;
Wooten v.

Thaler

598

F. 3d 215,

218

(5th Cir.. 2010).

A state

court's decision involves an unreasonable application of federal
law when it applies a correct legal rule unreasonably to the facts
of the case. See White v. Woodall

134 S. Ct. 1697,

1706

(2014).

An inquiry under the unreasonable context involves not whether the
state

court's

determination

was

5

incorrect,

but

whether

the

determination was objectively unreasonable. Boyer v.

Vannoy,

863

F.3d 428, 454 (5th Cir. 2017).
The court in Boyer stated that the determination must not be
"merely wrong, "

and that

"clear error"

overturn a state court's determination.
Epps, 641 F.3d 657, 663 (5th Cir. 2011)
is not the same as incorrect

will not be enough
Id;

see also Puckett v.

(finding that unreasonable

and thus an incorrect application of

the law will be affirmed if it is not also unreasonable).

Even if

a state court incorrectly applies Supreme Court precedent,
mistake alone,

to

that

does not mean that a petitioner is entitled to

habeas relief. See Puckett, 641 F.3d at 663.
B. Ineffective Assistance of Counsel
A petitioner seeking relief for ineffective-counsel must show
that

counsel's

performance

was

deficient

and

the

deficient

performance prejudiced his defense. See Strickland v. Washington,
466 U.S. 668, 697 (1984). Petitioner bears the burden of proof and
must prove by a preponderance of evidence that his counsel was
ineffective. See Rector v. Johnson,

120 F.3d 551,

563

(5th Cir.

1997); Clark v. Johnson, 221 F.3d 273, 284 (5th Cir. 2000) . A court
is not required to address both prongs of the test if the court
finds that the petitioner has not sufficiently proven one of the
two prongs.

See Strickland,

466 U.S.

at 697.

In other words,

a

court may dispose of the claim without addressing the other prong.

6

?

To prove deficient performance, the petitioner must show that
defense counsel's representation "fell below an objective standard
of reasonableness." See United States v. Bolton,

(5th Cir. 2018)

908 F.3d 75, 99

(quoting Strickland, 466 U.S. at 688). The Fifth

Circuit has repeatedly held that courts apply a "strong presumption
that counsel's conduct falls within the wide range of reasonable
professional assistance." Halprin v. Davis, 911 F.3d 247

258 (5th

Cir. 2018); Lucio v. Davis, 2018 U.S. App. LEXIS 29213 *12

(5th

Cir. Oct. 17, 2018); Crockett v. McCotter, 796 F.2d 787, 791 (5th
Cir. 1986). The petitioner must overcome this presumption as the
courts take into account the reasonableness of counsel's conduct
under all of the circumstances. See Strickland, 466 U.S. at 689;
Lucio, 2018 U.S. App. LEXIS 29213 at *12-13.
To show prejudice, the petitioner "must show that there is a
reasonable probability that,
errors,

but

for

counsel's

unprofessional

the result of the proceeding would have been different."

United States v. Avila-Gonzales, 2018 U.S. App. LEXIS 35950 *3-4

(5th Cir. Dec. 20,
Therefore,

2018)

(citing Strickland,

466 U.S. at 694).

the petitioner must be able to demonstrate that the

outcome would have been different. See id.

"The likelihood of a

different result must be substantial, not just conceivable." Mejia
v. Davis, 906 F.3d 307, 320 (5th Cir. 2018) (quoting Harrington v.
Richter, 562 U.S. 86, 112 (2011)).

7

Petitioner alleges five claims regarding alleged ineffective
assistance of counsel
For

the

reasons

without merit.

at both the trial and appellate levels.

discussed

below,

petitioner's

claims

are

'

First, petitioner claims his counsel was ineffective for not
making

a

Batson

Specifically,

challenge

petitioner

due

to

argues

gender

that

the

bias

at

"trial

the

was

trial.

infected

with a severe case of gender bias" because the jury consisted of
nine

females

and

three

fundamentally . unfair."

males,

Rec.

Doc.

"thus
14

rendering

at

4.

his

However,

trial
as

the

Magistrate Judge found, this argument lacks merit.
A Batson violation occurs when there is the use of peremptory
strikes of prospective jurors to purposefully discriminate against
one due to race or gender.
(1986);

J.E.B.

v.

Alabama

See Batson v.
ex rel.

T.B.

Kentucky,
511

476 U.S.

U.S.

(extending Batson to include gender discrimination).
different steps required of a petitioner to make,

127

79

(1994)

Among .the

the petitioner

must show a prima facie showing that a peremptory challenge has
been exercised on the basis of gender.

See Sparkman v.

2017 U.S. Dist. LEXIS 222324 *50 (E.D. La. Dec. 1, 2017)

Vannoy
(citing

Stevens v. Epps, 618 F.3d 489, 492 (5th Cir. 2010)).
Petitioner has not made out a prima

facie case of gender

discrimination. The State used only three peremptory challenges,
one striking a male and two striking females. See Rec. Doc. 13 at
8

14 . While petitioner urges the number of peremptory challenges
used by the State is "irrelevant,

u

{See Rec. Doc.

14 at 4) ,

the

fact that the State only used one to strike a male is not inherently
suspect. Petitioner's claim is conclusory and nothing in the record
supports a finding that a juror was improperly struck under Batson.
Second,

petitioner argues

that counsel's cross-examination

of Mary Beth Snyder was deficient.
that
so,

courts have stated

"[t]he decision whether to cross-examine a witness,
how vigorously

requires

a

judgment."

Lyons

(E.D.

La.

Supp.

2d

(5th

Cir .

courts

to

831,

v.

2018)

859

(W.D.
In

stated

decisions

U.S.

Tex.

that

courts

through

the

the

689.

of

Dist.

Ford

Supreme

decisions

Specifically,

should

hindsight,

not

professional
LEXIS

135 F.
Court

9913 7

*66
F.

App' x 769
has

warned

counsel.

the

Supreme

instead

counsel's perspective at the time. Id. Thus,

315

of

second-guess

but

and if

testimony,

v. ■ Cockrell,

aff'd,

2004),

addition,

at

witness'

2018 U.S.

(quoting

second-guessing
466

the

exercise

Vannoy,

11,

2005) ) .

in

challenge

quintessential

May

Strickland,
has

However

See

Court

counsel's
look

at

courts are to give

a strong presumption that counsel's performance was

reasonable

and might be "sound trial strategy." Id.
In Lyons,
meritless

as

the court found that.the petitioner's claims were
the

petitioner

failed

to

show

what

necessary

questions went unasked and how he was prejudiced by such. Lyons,
2018

U.S.

Dist.

found that the

LEXIS

99137

*|7.

On

the

contrary.,

the

court
//

petitioner's defense counsel

"vigorously and exhaustively

cross

examined" the witnesses. Lyons, 2018 U.S. Dist. LEXIS 99137 *6768 .
Here,

petitioner

counsel's

fails

to

establish

that

performance was deficient in the cross examination -of

the witness. He asserts that defense counsel cross-examined Mary
Beth Snyder,

but that the "cross examination

about her trial
she

had

testimony

that

contradicted

.

.

.

was simply

information

that

provided to Snyder and others." Rec. Doc. 1 at 6. While

Petitioner attempts

to assert

that

counsel

did not vigorously

cross examine Mary Beth Snyder, he fails to show or identify any
relevant

questions

examination.

In

that

counsel

addition,

failed

petitioner

to

ask

discusses

on

cross-

how Mary

Beth

Snyder, should have been impeached due to inconsistencies in her
testimonies, and that counsel had a
However,

"duty to impeach"

her.

id.

not only does petitioner concedes that defense counsel

did in fact cross examine the witness on her inconsistencies, but
the

record

also

shows

that

defense

counsel

transcripts in order to challenge the
See

id.;

found

Rec.

in

vigorously
Supreme
tactical
strong

Doc.

Lyon,

13

this

cross-examined

Court's

warning

decisions
presumption.

at

16.

finds

the

witness.

unless

10

that
We

as

defense
also

can

to

use

credibility.
the

court

counsel

recognize the

second-guessing

petitioner

Therefore,

witness's

Furthermore,

Court

against

attempted

counsel's

overcome

the

Petitioner has not shown how such attempts to cross-examine Mary
Beth Snyder were deficient nor how Petitioner was prejudiced.
Third,

petitioner argues

that counsel was

ineffective for

failing to object to Gwendolyn Williams's testimony from the first
trial
In

being

read

objections

that

the

fails

neglected

Williams's

the

the

record

report

testimony

petitioner
counsel

to

into

and

should
show

or

to

object

to

his

second

recommendation,

have

to

at

been

the

he

barred.

establish

how

admission

trial.
argues
However,

his
of

trial

Gwendolyn

testimony from the first trial. On the contrary,

the

record shows that counsel objected vigorously to the use of the
evidence at the hearing and renewed those objections at trial.
As

the

Magistrate

Judge

discussed,

challenge to the testimony was
that

counsel

performed

Fourth
was

continuances.

for

According

mere

fact

is

not

unsuccessful

that

evidence

contends
requesting
to

that

trial

unnecessary

petitioner,

the

counsel
and

"case

6.

However,

the court in Farrier v.

is

strategy that should be given great deference

2018

(E.D. La. May 25, 2018).

11

not

Doc.

14

Vannoy stated that the

decision to either seek a continuance or not

LEXIS 214803 *20

oral

was

benefited from the granting of any continuances." Rec.
at

the

deficiently." Rec. Doc. 13 at 18. .

petitioner

ineffective

"the

one of
U.S.

trial
Dist.

In the instant case, petitioner's indictment was amended to
charge him with second degree murder.

Petitioner's counsel from

the Louisiana Capital Assistance project withdrew counsel when
Petitioner no longer became charged with a capital offense. On the
same

day

that- trial

was

scheduled,

new

counsel

petitioner and requested a continuance. Thus,

enrolled

for

as the Magistrate

Judge assumes, a continuance was requested to prepare for trial as
counsel had just enrolled. A--second continuance was requested when
Petitioner

was

not

transferred

to

the

Jefferson

Parish

Correctional Center as ordered by the court.
While
benefit

petitioner

his

case,

asserts

he

does

that
not

these
show

continuances

how . the

requests

continuance were unreasonable. See United States v. Webb
60, 63 (5th Cir. 1986)
complete

necessary

did not
for

796 F.2d

(finding that a continuance to. gain time to
trial

preparation

unreasonable act by counsel) .

does

not

equal

an

Petitioner fails to show how the

results of his proceeding would have been different if counsel had
not requested the continuances. There is no showing that counsel
was prepared to try the case on the same day that counsel was
appointed

for petitioner.

additional

time

See Rec.

gave counsel

Doc.

13

at

the necessary time

20.

Thus,

the

to adequately

prepare petitioner's defense.
Lastly, ^petitioner
ineffective

for

failing

claims
to

that

argue
12

appellate

certain

issues

counsel
on

was

appeal.

According to petitioner,
a

claim

that

requesting

Matthews v.

is

every
Cain,

Johnson,

The

was

continuance of the trial.

forth

West v.

counsel

trial

previously held that
bring

appellate counsel should have asserted

However,

counsel

is

for

the courts have

not

required

to

non-frivolous claim that might, be raised. See
337 F.

Supp.

3d

687,

712

(E.D.

La.

2018);

92 F.3d 1385, 1396 (5th Cir. 1996)

court

important

appellate

ineffective

in

Matthews

reiterated

for experienced lawyers

the

viewpoint

to not

focus

that

it

so much on

the weaker arguments on appeal but instead focus on either one
central issue or a few important ones. The court held that such
strategy could be beneficial
especially those

that

in that

lack merit,

or bury good arguments. Matthews,

focusing on every issue,

could potentially undermine
337 F. Supp. at 712.

"Rather,

the applicable test to be applied in assessing such a claim is
instead

whether

clearly

stronger'
Id.

appeal."

the

issue

than

(citing

ignored

the

Diaz

by

issues

v.

appellate
actually

Quarterman,

counsel

was

presented

on

228 Fed. App'x 417,

427 (5th Cir.. 2007) ) .
Petitioner's
appeal

concerning

mistrial,

the

appellate
the

trial

allowance

of

counsel

raised

court's ■ denial
petitioner's

three

arguments

of -the motion
other

crimes,

the allowance of the State to view personal letters

on
for
and

that were

never offered at trial. While appellate counsel was unsuccessful
in his

arguments,

claim that

the

petitioner
13

fails

to

establish

how

the

trial

counsel

was

ineffective

for

requesting

stronger than those actually presented on appeal.

continuances

is

As seen earlier,

the continuances had reasonable grounds.
For the reasons stated above, petitioner has not shown that
either trial or appellate counsel was deficient in performance
nor that he was prejudiced by either counsel's performances.

New Orleans, Louisiana this 18th day of April, 2019.

SENIOR UNITED STATES DISTRICT JUDGE

14

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

ALLEN SNYDER

CIVIL ACTION

VERSUS

NO.

DARREL VANNOY, WARDEN

SECTION: "B"(l)

17-7071

JUDGMENT
The Court,

having considered the petition,

the record,

the

applicable law and for the written reasons assigned;
IT

IS

ORDERED,

ADJUDGED,

application for habeas

AND

corpus relief

DECREED

that

the

federal

filed by Allen Snyder

DISMISSED WITH PREJUDICE.
New Orleans, Louisiana, this 18th day of April, 2019.

SENIOR UNITED STATES DISTRICT JUDGE

is

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLEN SNYDER #169143

CIVIL ACTION

VERSUS

NUMBER: 17-7071

DARREL V ANNOY, WARDEN

SECTION: “B” (1)
ORDER

Considering the application and affidavit to proceed m forma pauperis.
IT IS ORDERED that:

□
□
□
□
□

kC

the motion is GRANTED; the party is entitled to proceed in forma pauperis.
the motion is'MOOT; the party was previously granted pauper status,
the motion is DENIED; the party has sufficient funds to pay the filing fee.
the motion is DENIED as MOOT; the filing fee has already been paid.
the motion is DENIED due to the party’s failure to provide this court with the requisite
financial information.
the motion is DENIED; the party is not entitled to proceed in forma pauperis for the listed
v"i
reasons : tLi
l
; ) J 7 -A ^
0.

■/

si
\Aj'

J'L

r*

Q>—£
V

New Orleans, Louisiana, this/ ^ ^Iday of June, 2019.

>j ‘4-C , •

. ->Tw_

P

' \

SENIOR UNITED STATES DISTRICT JUDGE

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLEN SNYDER

CIVIL ACTION

VERSUS

NO. 17-7071

DARREL VANNOY, WARDEN

SECTION: «B”(1)

REPORT AND RECOMMENDATION
This matter was referred to this United States Magistrate Judge for the purpose of
conducting a hearing, including an evidentiary hearing, if necessary, and submission of proposed
findings of fact and recommendations for disposition pursuant to 28 U.S.C. § 636(b)(1)(B) and
(C) and, as applicable, Rule 8(b) of the Rules Governing Section 2254 Cases in the United States
District Courts. Upon review of the record, the Court has determined that this matter can be
disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2). Therefore, for all of the
following reasons, IT IS RECOMMENDED that the petition be DISMISSED WiTH
PREJUDICE.
Petitioner, Allen Snyder, is a state prisoner incarcerated at the Louisiana State Penitentiary
in Angola, Louisiana. Although he was originally convicted of first degree murder and sentenced
to death, that conviction and sentence were overturned after the United States Supreme Court
determined that the prosecution exercised a peremptory challenge based on race in violation of
Batson v. Kentucky, 476 U.S. 79 (1986).' After the charge against petitioner was reduced to

‘On August 29, 1996, petitioner was convicted of first degree murder. State Rec., Vol. 11 of 20, transcript of August
29, 1996, p. 166. On August 22, 1997, he was sentenced to death based on the jury’s recommendation. State Rec.,
Vol. 12 of 20, transcript of August 22, 1997, p. 26. On April 14, 1999, the Louisiana Supreme Court conditionally
affirmed that conviction and sentence but remanded the matter to the district court for a determination of whether a
meaningful inquiry into petitioner’s competence at the time of trial was possible and, if so, for an evidentiary hearing
and determination on that issue. State v. Snyder. 750 So. 2d 832 (La. 1999); State Rec., Vol. 2 of 20. On remand, the
district court found that a retrospective determination of petitioner’s comneferice at trial was possible and that he was

APPENDIX

C

second degree murder, he was convicted of that lesser crime2 and sentenced to a term of life
imprisonment without benefit of probation, parole, or suspension of sentence. 3
In its opinion on direct appeal, the Louisiana Fifth Circuit Court of Appeal summarized the
facts of this case as follows:
In 1995, Allen Snyder and his then-wife, Mary Beth, had a troubled
marriage.[FN 11] According to Mary Beth, however, after the birth of their third
child, Allen became very controlling and jealous. He would not allow her to speak
to other men and prohibited her from leaving the house alone.
[FN 11] It is undisputed that both parties had engaged in extramarital
relationships in 1994 or 1995.

Eventually, Allen’s jealousy escalated to physical abuse. Mary Beth
testified that, on March 18, 1995, Allen, using his hand, violently shoved her head
against the passenger side window of his car, which caused injuries to her face.
Mary Beth did not seek medical treatment that night.
About three months later, in May of 1995, Allen struck Mary Beth in the
leg with a baseball bat as she lay sleeping. She had a large bruise and limped for
about a week. Not long after that incident, Allen drove Mary Beth to an isolated
road, opened the trunk of his car, and threatened her that he could do “whatever he
wanted to” her and “nobody would ever find” her.
That summer the violence escalated. On the morning of June 11, 1995,
Allen “slammed” Mary Beth’s head into the wall of their children’s bedroom,
which caused injuries requiring hospitalization. [FN 12] After this instance, which
their children witnessed, Mary Beth took their children and went to stay at her
parents’ house on Wilker Neal Street in River Ridge.
[FN 12] Daniel Kilian, former patrol officer for the Kenner Police Department,
testified that, on June 11,1995, he responded to a call at the Snyder’s home at 508
Hanson Street in Kenner. When he arrived, he observed Mary Beth Snyder, who
was bleeding from her head and had a scratch on her face. She reported that Allen
had pushed her head into a wall in their children’s bedroom. Defendant was
arrested in connection with this incident. Further, the parties stipulated that the
in fact competent during trial. State Rec., Vol. 3 of 20, Judgment dated October 26, 2000. On April 14, 2004, the
Louisiana Supreme Court then unconditionally affirmed petitioner’s conviction and sentence. State v. Snyder. 874
So. 2d 739 (La. 2004); State Rec., Vol. 3 of 20. However, on June 27, 2005, the United States Supreme Court vacated
that judgment and remanded the matter for further consideration of petitioner’s Batson claim. Snyder v. Louisiana.
545 U.S. 1137 (2005); State Rec., Vol. 19 of 20. On September 6, 2006, the Louisiana Supreme Court again
unconditionally affirmed petitioner’s conviction and sentence. State v. Snyder. 942 So. 2d 484 (La. 2006); State Rec.,
Vol. Vol. 13 of 20. On March 19, 2008, the United States Supreme Court, finding a Batson violation, then reversed
that judgment and remanded the matter. Snyder v. Louisiana. 552 U.S. 472 (2008); State Rec., Vol. 19 of 20. On
April 30, 2008, the Louisiana Supreme Court set aside the conviction and sentence and remanded the matter to the
district court. State v. Snvder. 982 So. 2d 763 (La. 2008); State Rec., Vol. 13 of 20.
2 State Rec., Vol. 17 of 20, transcript of February 3, 2012, p. 138.
3 State Rec., Vol. 17 of 20, transcript of March 1, 2012.

2

medical records for East Jefferson General Hospital would establish that Mary
Beth Snyder was admitted for medical treatment of injuries to her head on June
11,1995.

On June 18, 1995, Allen tried to speak with Mary Beth, but she refused.
Later that night, Allen disconnected the electrical box outside Mary Beth’s parents ’
home, entered the home, and stabbed Mary Beth nine times in the neck, head, and
arms. Mrs. Snyder was treated at the hospital for her injuries.[FN 13]
[FN 13] Sergeant Bonura testified that, on June 18, 1995, he was dispatched to a
residence on Wilker Neal in response to an aggravated burglary. Upon arrival, he
observed that the victim, Mary Beth Snyder, had sustained a puncture wound to
her neck. Sergeant Bonura interviewed witnesses and developed Allen Snyder as
a suspect. Further, the parties stipulated that the medical records for East
Jefferson General Hospital revealed that Mary Beth Snyder was admitted for
treatment of numerous deep puncture wounds on June 18, 1995.

Approximately two months later, on August 15, 1995, Allen called Mary
Beth to discuss reconciliation. Mary Beth agreed to meet with him the following
day, telling Allen that she had plans with her cousin that night. Allen, however,
wanted to begin their reconciliation that night so he paged Mary Beth numerous
times while he waited outside of her cousin’s house, which is less than a block away
from Mary Beth’s parents’ house.
In truth, Mary Beth went out with another man, Howard Wilson. Around
1:30 a.m., Howard Wilson drove Mary Beth back to her parents’ house. Allen, who
admitted that he was carrying a nine-inch-long knife to “scare” Mary Beth into
talking to him, was hiding next to a nearby house and waiting for Mary Beth to
return.
Not long after Howard Wilson stopped his car in front of Mary Beth’s
parents’ house, Allen yanked open the driver’s side door, leaned over Howard
Wilson, and stabbed Mary Beth in the face, which, according to Allen “slowed her
down.” Allen then “tussled” with Howard, who “got stabbed” because he floored
the car’s accelerator causing Allen to fall onto Howard during the fight. At some
point, Howard Wilson exited his car and stumbled down the street. Allen then got
into Wilson’s car and attempted to drive off with Mary Beth, who fought and pled
for her life. Almost immediately, however, Allen crashed the car into a nearby fire
hydrant then fled.[FN 14]
[FN 14] At trial, Allen testified that, when he approached the car, he observed
Mary Beth and Howard kissing. He further testified that Howard Wilson “jumped
up and that’s how the scuffle started.” Allen testified that Wilson was armed also.
Further, Allen disarmed him then Wilson ran away. Finally, after trying to
remove Mary Beth from the car, Allen eventually ran back to his car, and went
home.

That night, Gwendolyn Williams was walking home on Wilker Neal Street
when she observed a man “stooping down on the side of a trailer” with a knife. She
saw the man run from behind the trailer toward a car parked across the street, then
open the driver’s door, jump inside, and start “tussling” with the driver. When the
3

driver exited the car, Ms. Williams observed that his “throat was cut.” Then, the
car moved forward until it hit a fire hydrant.
According to Ms. Williams, she could hear Mary Beth Snyder, who was
inside the car, screaming for help while the man, who she recognized as Mary
Beth’s husband, “started cutting on her.” Ms. Williams, who had known Mary Beth
for a long time, screamed at the man, who jumped out of the car and fled. Ms.
Williams then helped Mary Beth, who was cut “everywhere she could be cut” to
her mother’s house and waited for the paramedics and the police to arrive.
Deputy Michael Cooke of the Jefferson Parish Sheriff’s Office (“JPSO”)
was on patrol when he was dispatched to a “traffic accident” at 312 Wilker Neal
Street. When he arrived at the scene, he noticed that a white car had struck a fire
hydrant. There were no passengers inside the vehicle; however, large amounts of
blood were present on the ceiling and dashboard. Deputy Cooke then located
Howard Wilson and Mary Beth Snyder, who each had sustained wounds that
appeared to be from a sharp instrument, such as a knife. After both victims were
determined to be free of weapons, they were rushed to the hospital.
According to medical records that were introduced at trial, Howard Wilson
died from exsanguination caused by sharp force injuries inflicted with a doubleedged blade. Dr. Susan Garcia, an expert forensic pathologist who performed the
autopsy on the victim, testified that Howard Wilson sustained nine sharp force
injuries to his upper torso. Of those nine, two wounds, which punctured his lung
and opened an artery, were lethal. The manner of Mr. Wilson’s death was
homicide. [FN 15]
[FN 15] That night, Mary Beth Snyder sustained 19 stab wounds, which required
surgical intervention and hospitalization.

Meanwhile, as a result of investigation, Allen Snyder, defendant herein, was
developed as a suspect. Approximately 12 hours later, defendant called the police
claiming that he “cut some people and that he was considering suicide,” and
requested that an officer be sent to his house.
Officer Vic Giglio of the Kenner Police Department was dispatched to 508
Hanson Street, in Kenner, in response to the call. Defendant allowed Officer Giglio
to enter his house then retreated to another room in the house, where he continued
to speak with the dispatcher. Defendant did not have any visible injuries. Almost
immediately, Sergeant Giglio realized that defendant was wanted for questioning
regarding the homicide on Wilker Neal so he detained defendant for the Jefferson
Parish Sheriff’s Office.
Detective Debbie Lab it of the JPSO arrived at defendant’s home and
advised him of his MirandafFN 16] rights. She observed injuries to defendant’s
right hand, which appeared to be fresh and “indicative of offensive-type of injuries
during an altercation where a knife is used.” Detective Labit had defendant
transported to the Detective’s Bureau, where defendant told her that “he had cut
them and that he had been beaten up emotionally by his ex - by his wife and that
during the cutting, that the male had taken the knife and fled with the knife.”[FN
17]

4

[FN 16] Miranda v. Arizona. 384 U.S. 436.86 S.Ct. 1602,16 L.Ed.2d 694 (1966).
[FN 17] The weapon was never recovered.

Defendant’s statement was played for the jury. In his statement, defendant
indicated that he drove to Wilker Neal Street to find his wife and who was with her.
Defendant stated that, when Mary Beth and Howard Wilson drove up, he was going
to leave but decided to approach them with a knife. Defendant indicated that he
intended to “scare her and her friend” “to make ’em talk to me.” Defendant stated
that he walked up to the white car, opened the driver’s side door, and told Howard
Wilson “we have to talk.” According to defendant, Howard Wilson then “jumped
up” and they started to “scuffle.” Defendant stated that he pushed the victim back
into the car, and that both he and the victim were armed with knives.
Defendant stated, “my wife, she got stabbed first” then Howard Wilson got
stabbed because he pressed the accelerator, which caused defendant to fall onto
Wilson. Next, Wilson exited the car and ran one way while defendant ran the other
way. Defendant admitted that he threw the knife away as he fled.
On August 16, 1995, Lieutenant Schultz prepared and participated in the
execution of a search warrant for defendant’s residence and his vehicle. In
defendant’s house, deputies recovered a white t-shirt hidden in the attic that tested
positive for blood consistent with Howard Wilson’s DNA.
Further, at trial, Mary Beth identified defendant, who is now her exhusband, as the person who stabbed her and Howard Wilson on the night of August
16, 1995. She also testified that neither she nor Howard Wilson had a weapon of
any sort during the altercation in question. After hearing the testimony and
reviewing the evidence, the twelve-person jury unanimously found defendant guilty
as charged of second degree murder.4
The Court of Appeal then affirmed petitioner’s conviction and sentence,5 and the Louisiana
Supreme Court thereafter denied his related writ application,6 completing the direct-review
proceedings in the state courts.
After • subsequently seeking post-conviction relief in the state courts without success,
petitioner filed the instant federal habeas corpus application on July 24, 2017.7 In his application,
he claimed that he received ineffective assistance of counsel both at trial and on appeal.
Specifically, he claimed:

4 State v. Snvder. 128 So. 3d 370, 373-75 (La. App. 5th Cir. 2013); State Rec., Vol. 17 of 20.
5 li at 383.
6 State v. Snvder. 138 So. 3d 643 (La. 2014); State Rec., Vol. 17 of 20.
7 Rec. Doc. 3.

5

1.

Trial counsel was ineffective for
(a)

allowing the court to use “other crimes” evidence without argument,

(b)

failing to object to the prosecution’s Batson violation in choosing
prospective jurors with experiences of domestic abuse,

(c)

failing to impeach Mary Beth Snyder with her testimony from the first trial
and failing to show her bias and/or motive for lying,

(d)

allowing Gwendolyn Williams’ s former testimony to be read into the record
during the second trial in violation of petitioner’s right to confront his
accusers, and

(e)
2.

requesting an oral continuance.

Appellate counsel was ineffective.

All of those claims were first raised by petitioner during the state post-conviction
proceedings. However, of those claims, only Claim 1(b) was raised in the state district court. That
court denied that claim, holding:
The state urges this court to find the procedural bar of LSA-C.Cr.P. art.
926(B)(3) bars relief. That article requires that a petitioner include a “statement of
the grounds upon which relief is sought, specifying with reasonable particularity
the factual basis for such relief.” In addition to this provision, at all times the burden
of proof in a post-conviction case is on the petitioner. LSA-C.Cr.P. art. 930.2.
Petitioner’s brief contains a bare conclusion that his trial and appellate attorneys
were ineffective in not objecting to jury composition. The court finds this claim
procedurally barred by lack of specificity and failing to meet, or even allege, the
necessary burden of proof.8
Petitioner then raised that same claim, along with additional new claims, in the related writ
application he filed with the Louisiana Fifth Circuit Court of Appeal. In denying that writ
application, the Court of Appeal held:

State Rec„ Vol. 14 of 20, Order dated January 7, 2015, p. 2.

6

In his writ application, for the first time, relator raises and briefs his
allegations of ineffective assistance of counsel concerning the State’s introduction
of evidence of other crimes and bad acts, his right to full confrontation and crossexamination of the State’s witnesses, and the injustice he suffered when trial.
counsel asked for an unnecessary oral continuance. Relator also raises and briefs
his argument of ineffective assistance of appellate counsel when she failed to assign
as error his motion to quash and writ of habeas corpus on direct appeal. Because
appellate courts will only review issues that were submitted to the trial court, we
decline to review relator’s new ineffective assistance of counsel claims. See
U.R.C.A. Rule 1-3.
To the extent that relator’s writ application seeks to challenge the denial of
the one claim of ineffective assistance of counsel originally set forth in his
application for post-conviction relief, we find that the district court did not err in .
denying this claim on procedural grounds. In his application for post-conviction
relief, relator raised as claim 3 that his trial attorneys were ineffective when they
failed to recognize and object to the discriminatory practice of selecting the jury
pool. In his writ application, relator claims that as a Batson violation, his trial
counsel was ineffective for not objecting to the “prosecution’s consistent
manipulation in choosing prospective jurors.” Upon review, we find that the
district court did not err in denying this claim of ineffective assistance of counsel,
finding that relator failed to meet his burden of proof under La. C.Cr.P. art. 930.2,
in that the claim lacked specificity and failed to meet or even allege the necessary
burden of proof.9
Petitioner then sought further review by the Louisiana Supreme Court. However, that court
likewise denied relief, stating simply: “Denied. Relator fails to show he received ineffective
assistance of counsel under the standard of Strickland v. Washington. 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). Relator’s remaining claims are repetitive and/or unsupported.
La.C.Cr.P. art. 930.2; La.C.Cr.P. art. 930.4.”10
Exhaustion/Procedural Bar
“Before seeking a federal writ of habeas corpus, a state prisoner must exhaust availablestate remedies, 28 U.S.C. § 2254(b)(1), thereby giving the State the opportunity to pass upon and
correct alleged violations of its prisoners’ federal rights.” Baldwin v. Reese. 541 U.S. 27, 29
(2004) (quotation marks omitted). Moreover, the prisoner’s claims must have been presented “in

9 Snyder v, Cain. No. 15-KH-158 (La. App. 5th Cir. May 5, 2015); State Rec., Vol. 14 of 20.
10 State ex rel. Snyder v. State. 202 So. 3d 481 CLa. 20161: State Rec Vol 20 of 2.0

7

a procedurally proper manner according to the rules of the state courts.” Dupuy v. Butler. 837
F.2d 699, 702 (5th Cir. 1988) (quotation marks omitted); see also Cartv v. Thaler, 583 F.3d 244,
254 (5th Cir. 2009) (“Fair presentation does not entertain presenting claims for the first and only
time in a procedural context in which its merits will not be considered unless there are special and
important reasons therefor.

The purposes of the exhaustion requirement would be no less

frustrated were we to allow federal review to a prisoner who had presented his claim to the state
court, but in such a manner that the state court could not, consistent with its own procedural rules,
have entertained it.” (citation and quotation marks omitted)).
In its response in this proceeding, the state asserts that “all claims appear to be
exhausted. >>11 That concession appears to be based on the fact that all of the claims were asserted
to the Louisiana Supreme Court.

If so, then the concession is based on a common

misunderstanding of the exhaustion requirement.

“Attorneys who represent the State often

mistakenly assume that because a case has progressed to the Supreme Court of Louisiana, claims
have been exhausted. Claims are not exhausted, however, unless they are properly presented in
the Petitioner’s briefs at each level of the state court system, either on appeal or post-conviction.”
Wilson v. Warden, Riverbend Detention Center. Civ. Action No. ll-cv-0355, 2014 WL 1315557,
at *3 (W.D. La. Mar. 31, 2014) (emphasis added); see also Baldwin. 541 U.S. at 29 (holding that
to comply with the exhaustion requirement, “the prisoner must fairly present his claim in each
appropriate state court (including a state supreme court with powers of discretionary review)...”
(emphasis added; quotation marks omitted)). Here, as noted, the Louisiana Fifth Circuit Court of
Appeal held petitioner had asserted all but one of his ineffective assistance of counsel claims for

11 Rec. Doc. 11, p. 19.

8

the first time to that court, thereby bypassing the state district court.12 Because those new claims
were not asserted at each level of the state court system, they are unexhausted.
Further, it is clear that a federal habeas claim is also procedurally defaulted if the “prisoner
fail[ed] to exhaust available state remedies and the court to which the petitioner would be required
to present his claims in order to meet the exhaustion requirement would now find the claims
procedurally barred.” Nobles v. Johnson. 127 F.3d 409, 420 (5th Cir. 1997) (internal quotation
marks omitted). Here, there is little doubt the state courts would deny any new attempt by
petitioner to assert his unexhausted claims as procedurally barred, because any new application
would now be both repetitive and untimely under articles 930.4 and 930.8 of the Louisiana Code
of Criminal Procedure. That said, the state does not argue that the claims are procedurally barred
on that basis, and the Court is not obliged to raise such a defense on the state’s behalf. See Trest'
v- Cain, 522 U.S. 87 (1977); Prieto v. Ouarterman. 456 F.3d 511, 518 (5th Cir. 2006); Magouirk
v. Phillips. 144 F.3d 348, 359-60 (5th Cir. 1998).
The state does, however, argue that petitioner’s claims are procedurally barred on other
bases. The state notes that the Court of Appeal denied Claim 1(b) based on article 926(B)(3) of
Louisiana Code of Criminal Procedure, which provides: “The petition [for post-conviction relief]
shall allege ... [a] statement of the grounds upon which relief is sought, specifying with reasonable
particularity the factual basis for such relief....” The state further notes that petitioner’s remaining
claims were denied by the Court of Appeal because they were improperly asserted in violation of
Rule 1-3 of the Uniform Rules of the Louisiana Courts of Appeal, which provides in pertinent part:
“The Courts of Appeal will review only issues which were submitted to the trial court ....” The
state then opines that it is presumed that the Louisiana Supreme Court adopted those same rulings.

12 Snyder v, Cain. No. 15-KH-158 (La. App. 5th Cir. May 5, 2015); State Rec., Vol. 14 of 20.

9

However, it is far from clear that such a presumption is appropriate in the instant case. As
noted, the Louisiana Supreme Court’s cryptic judgment appears to indicate that it denied one or
more unspecified claims on the merits and then denied the “remaining claims” (which were also
unspecified) based on articles 930.2 “and/or” 930.4 of the Louisiana Code of Criminal Procedure.
Because the Louisiana Supreme Court’s ruling is so vague and is at least arguably inconsistent
with the Court of Appeal’s opinion and its bases for denial, this Court cannot definitively determine
on which basis or bases each of petitioner’s individual claims were denied by the Louisiana
Supreme Court.
In the face of such uncertainty, and in an abundance of caution, the undersigned
recommends that, because petitioner’s claims clearly fail on the merits in any event, they simply
be denied on that basis rather than on procedural grounds.13
Petitioner’s Claims
As noted, petitioner claims that he received ineffective assistance of counsel both at trial
and on appeal. The clearly established federal law concerning ineffective assistance of counsel
claims is founded on the United States Supreme Court’s decision in Strickland v. Washington. 466
U.S. 668 (1984). In that case, the Supreme Court established a two-prong test for evaluating

13 A federal habeas court need not determine whether claims are in fact procedurally barred when the claims clearly
fail on the merits. See Glover v. Hargett. 56 F.3d 682, 684 (5th Cir. 1995); Wilev v. Puckett. 969 F.2d 86, 104 (5th
Cir. 1992); Corzo v, Murphy. Civ. Action No. 07-7409, 2008 WL 3347394, at *1 n.5 (E.D. La. July 30, 2008). A
federal court additionally has the authority to deny a habeas claim on the merits regardless of whether the petitioner
exhausted his state court remedies with respect to that claim and whether exhaustion is waived by the state. 28 U.S.C.
§ 2254(b)(2); Jones v. Jones, 163 F.3d 285, 299 (5th Cir. 19981; Lande v. Cooper. Civ. Action No. 11-3130, 2013 WL
5781691, at *26 n.68 (E.D. La. Oct. 25, 2013); Woods v. Cain. Civ. Action No. 06-2032, 2008 WL 2067002, at *8
n.8 (E.D. La. May 13, 2008).
Additionally, the Court notes that a federal habeas court is to apply a deferential standard of the review with
respect to claims adjudicated on the merits by the state courts. See 28 U.S.C. § 2254(d). However, because this Court
cannot ascertain which claims were adjudicated on the merits in the instant case, and because the claims fail even
when considered under a more stringent de novo standard of review, the Court will simply apply the de novo standard.
See Berghuis v. Thompkins, 560 U.S. 370, 390 (2010) (“Courts can ... deny writs of habeas corpus under § 2254 by
engaging in de novo review when it is unclear whether AEDPA deference applies, because a habeas petitioner will
not be entitled to a writ of habeas corpus if his or her claim is rejected on de novo review, see § 2254(a).”).

10

ineffective assistance of counsel claims. Specifically, a petitioner seeking relief on such a claim
is required to show both that counsel’s performance was deficient and that the deficient
performance prejudiced his defense. Strickland. 466 U.S. at 697. The petitioner bears the burden
of proof and “must demonstrate, by a preponderance of the evidence, that his counsel was
ineffective.” Jernigan v. Collins, 980 F.2d 292, 296 (5th Cir. 1993); see also Clark v. Johnson.
227 F.3d 273, 284 (5th Cir. 2000). If a court finds that the petitioner has made an insufficient
showing as to either of the two prongs of inquiry, i.e. deficient performance or actual prejudice, it
may dispose of the ineffective assistance claim without addressing the other prong. Strickland.
466 U.S.at 697.
To prevail on the deficiency prong of the Strickland test, a petitioner must demonstrate that
counsel’s conduct fails to meet the constitutional minimum guaranteed by the Sixth Amendment.
Styron v. Johnson, 262 F.3d 438,450 (5th Cir. 2001). “Counsel’s performance is deficient if
it falls below an objective standard of reasonableness.” Little v. Johnson. 162 F.3d 855, 860 (5th
Cir. 1998). Analysis of counsel’s performance must take into account the reasonableness of
counsel’s actions in light of all the circumstances. See Strickland. 466 U.S. at 689. “[I]t is
necessary to ‘judge ... counsel’s challenged conduct on the facts of the particular case, viewed as
of the time of counsel’s conduct.’” Lockhart v. Fretwell. 506 U.S. 364, 371 (1993) (quoting
Strickland, 466 U.S. at 690). The petitioner must overcome a strong presumption that the conduct
of his counsel falls within a wide range of reasonable representation. See Crockett v. McCotter.
796 F.2d 787, 791 (5th Cir. 1986); Mattheson v. King. 751 F.2d 1432, 1441 (5th Cir. 1985).
The appropriate standard for determining prejudice varies slightly depending on whether a
petitioner is challenging the actions of trial or appellate counsel. In order to prove prejudice with
respect to trial counsel, a petitioner “must show that there is a reasonable probability that, but for

11

counsel’s unprofessional errors, the result of the proceeding would have been different.’
Strickland. 466 U.S. at 694. In this context, a reasonable probability is “a probability sufficient to
undermine confidence in the outcome.” IcL In making a determination as to whether prejudice
occurred, courts must review the record to determine “the relative role that the alleged trial errors
played in the total context of [the] trial.” Crockett, 796 F.2d at 793. On the other hand, to prove
prejudice with respect to a claim that appellate counsel was ineffective, a petitioner must show a
reasonable probability that he would have prevailed on appeal but for his counsel’s deficient
representation. Briseno v. Cockrell. 274 F.3d 204, 207 (5th Cir. 2001); see also Smith v. Robbins,
528 U.S. 259, 286 (2000). Therefore, a petitioner must demonstrate a reasonable probability that,
if appellate counsel’s performance had not been deficient in the manner claimed, the appellatecourt would have vacated or reversed the trial court judgment based on the alleged error. Briseno,
274 F.3d at 210.
Petitioner first contends that his trial counsel was ineffective for allowing the state to use
“other crimes” evidence against him without argument and “for not briefing the trial court on how
the State could not use mere allegations that were never proven against him. »>14 That claim is
wholly unsupported by the record, which shows that counsel in fact vigorously litigated this issue.
For example, at a hearing held on May 10, 2010, petitioner’s trial counsel argued that the
“other crimes” evidence was inadmissible.15 At that time he argued that the evidence was hearsay
and that the prior bad acts were unadjudicated. He further argued that the acts were irrelevant
because they were not acts against Wilson, the actual victim in the case. After the hearing, defense
counsel also filed an extensive memorandum further explaining his arguments as to why the “other

14 Rec. Doc. 3, pp. 6 and 30.
15 State Rec., Vol. 15 of 20, transcript of May 10, 2010.

12

crimes” evidence was inadmissible.16

Among his various arguments, counsel argued that

petitioner had not been prosecuted for any of the alleged incidents against Mary Beth Snyder and
that the state had failed to show by clear and convincing evidence that the acts occurred and that
they were committed by petitioner.17 After the court found the evidence admissible, trial counsel
then sought writs from the Louisiana Fifth Circuit Court of Appeal18 and the Louisiana Supreme
Court.19 The mere fact that counsel’s vigorous efforts were ultimately unsuccessful is not evidence
that his performance was constitutionally deficient. See Martinez v. Dretke. 99 F. App’x 538, 543
(5th Cir. 2004). Because no deficient performance has been shown with respect to this claim, the
claim necessarily fails.
Petitioner next contends that his trial counsel was “ineffective for not objecting to the
State’s consistent manipulation in choosing prospective jurors in this case.

The State

systematically chose women with past experiences of domestic abuse. ”20 He further claims that
the prosecution deliberately manipulated the jury pool by winnowing out “almost everyone not
female and/or not biased on the issue of domestic violence.”21
In Batson v. Kentucky. 476 U.S. 79 (1986), the Supreme Court held that purposeful racial
discrimination in the use of peremptory strikes of prospective jurors violates the Equal Protection
Clause. In J.E.B. v. Alabama ex rel. T.B.. 511 U.S. 127 (1994), the Supreme Court extended that
prohibition to include gender discrimination. In evaluating whether a petitioner has established a
violation, a three-step analysis is employed, with the first step requiring that a petitioner make a

16 State Rec., Vol. .13 of 20, Objection to State’s Notice of Intent to Use Evidence of Other Crimes filed May 19, 2010.
17 kb
18 See State v. Snvder. No. 10-K-628 (La. App. 5th Cir. Aug. 20, 2010); State Rec., Vol. 20 of 20.
19 See State v. Snvder. 49 So. 3d 391 (La. 2010); State Rec., Vol. 20 of 20.
20 Rec. Doc. 3, at pp. 6 and 34.
21 Id. atpp. 34-35.

13

31

prima facie showing that a peremptory challenge has been exercised on the basis of gender.
Stevens v. Epps. 618 F.3d 489, 492 (5th Cir. 2010).
The relevant circumstances of the jury selection in this case simply do not allow for the
conclusion that a prima facie case of gender discrimination can be made. The record provides no
evidence or any indication that peremptory challenges were used to discriminate against males.
The record reflects that the final jury proper consisted of nine females and three males, along with
two females chosen as alternate jurors.22 After the venire members were randomly drawn, 39
persons were questioned prior to the final jury selection.23 Of the 15 males examined, six were
stricken for cause, leaving only nine on the venire.24 The State used only three peremptory
challenges consisting of one strike on a male and two strikes on females.25 Given the facts of this
particular case and this particular jury panel, the State’s use of one of its strikes on a male is neither
surprising nor inherently suspect. Where, as here, a petitioner has failed to present any evidence
showing that there was in fact a basis for a Batson challenge, he cannot meet his burden to prove
that counsel was ineffective for failing to make such a challenge. See, e.g.. Dennis v. Vannov.
Civ. Action No. 16-6889, 2017 WL 9855222, at *15 (E.D. La. June 2, 2017), adopted. 2018 WL
3417872 (E.D. La. July 12, 2018); Stogner v. Cain. Civ. Action No. 12-2703, 2013 WL 2444667,
at * 19 (E.D. La. June 4, 2013); accord Bell v. Director. TDCJ-CID. No. 03-36, 2005 WL 2977771,
at *6 (E.D. Tex. Nov. 2, 2005) (“[Tjhere is nothing in the record to support the Petitioner’s
allegation that a particular juror was improperly struck. From the record, it is not possible to draw
a reasonable inference of purposeful discrimination as required by Batson. Petitioner has provided
no proof of his allegation. The Petitioner’s claim is a conclusory allegation not supported by the

22 State Rec., Vol. 13 of 20, minute entry dated January 31, 2012.
24 Id.
25 Id.

14

3A

record. Conclusory allegations and bald assertions are insufficient to support a petition for a writ
of habeas corpus.”). Accordingly, this claim must likewise be rejected.
Petitioner next contends that trial counsel was ineffective in his cross-examination of Mary
Beth Snyder. He claims his trial counsel “had a duty to impeach Mary Beth, and reveal her bias
and/or motive for lying to so many people. >>26
It is clear that “[t]he decision whether to cross-examine a witness, and if so, how vigorously
to challenge the witness’ testimony, requires a quintessential exercise of professional judgment.”
Ford v. Cockrell, 315 F. Supp. 2d 831, 859 (W.D. Tex. 2004), aff’d. 135 F. App’x 769 (5th Cir.
2005); accord Lewis v. Cain. Civ. Action No. 09-2848, 2009 WL 3367055, at *8 (E.D. La. Oct.
16, 2009), aff’d, 444 F. App’x 835 (5th Cir. 2011); Williams v. Cain. Civ. Action Nos. 06-0224
and 06-0344, 2009 WL 1269282, at *11 (E.D. La. May 7, 2009), aff’d. 359 F. App’x 462 (5th Cir.
2009); Packnett v. Cain. Civ. Action No. 06-5973, 2008 WL 148486, at *11 (E.D. La. Jan. 10,
2008); Parker v. Cain, 445 F. Supp. 2d 685, 710 (E.D. La, 2006). Moreover, the United States
Supreme Court has cautioned courts not to second-guess counsel’s decisions on such tactical
matters through the distorting lens of hindsight; rather, courts are to employ a strong presumption
that counsel’s conduct falls within a wide range of reasonable assistance and, under the
circumstances, might be considered sound trial strategy. Strickland. 466 U.S. at 689. Additionally,
it is irrelevant that another attorney 'might have made other choices or handled such issues
differently.

As the Supreme Court noted:

“There are countless ways to provide effective

assistance in any given case. Even the best criminal defense attorneys would not defend a
particular client in the same way.” Id

26 Rec. Doc. 3, p. 6.

15

Here, petitioner has failed to show that counsel’s cross-examination of Mary Beth Snyder
was deficient. First, petitioner does not identify any relevant questions that counsel failed to ask
on cross-examination. Further, while petitioner contends that Mary Beth Snyder’s testimony was
inconsistent with the testimony she provided at the first trial, the record reflects that defense
counsel did in fact question her about the inconsistencies.27 Defense counsel used the transcript
of her prior testimony to refresh her recollection as well as to impeach her testimony.28 After a
review of the transcripts in their entirety the Court finds that counsel’s cross-examination and
attempts to challenge her credibility were not deficient and that petitioner was not prejudiced by
counsel’s performance.
The court notes that petitioner also seems to fault trial counsel for failing to introduce into
evidence letters Mary Beth Snyder wrote to petitioner. However, on federal habeas corpus review,
“[a] conscious and informed decision on trial tactics and strategy cannot be the basis for
constitutionally ineffective assistance of counsel unless it is so ill chosen that it permeates the
entire trial with obvious unfairness.” Garland v. Maggio, 717 F.2d 199, 206 (5th Cir. 1983); see
also Pane v. Thaler. 645 F.3d 281, 291 (5th Cir. 2011). ‘“Failure to present [evidence does] not
constitute “deficient” performance within the meaning of Strickland if [counsel] could have
concluded, for tactical reasons, that attempting to present such evidence would be unwise.’”
Williams v. Cockrell, 31 F. App’x 832, 2002 WL 180359, at *3 (5th Cir. Jan. 4, 2002) (quoting
Williams v. Cain. 125 F.3d 269, 278 (5th Cir. 1997)).
In this case, defense counsel questioned the witness about two of the letters. The trial court,
however, limited defense counsel’s examination, ordered that the letters could not be admitted into
evidence or read to the jury, and allowed the prosecution to review the two letters over the

27 State Rec., Vol. 16of20, trial transcript of February 2, 2012,pp. 130-32, 136-37,and 139-40.
28 Id. at pp. 124-25, 128-29, 130-32, and 139-40.

16

defense’s objection. Defense counsel then decided to conclude his questioning of the witness
because he did not want to risk having to produce additional letters, which the defense believed to
be non-discoverable, to the prosecution.29 It is clear from defense counsel’s statements at trial that
he made a tactical decision to conclude his cross-examination of the witness.30
Because petitioner cannot establish that his counsel performed deficiently with respect to
his cross-examination of Mary Beth Snyder, this claim fails.
Read broadly, petitioner’s next contention is that his trial counsel was ineffective for failing
to object to Gwendolyn Williams’s testimony from the first trial being read into the record at his
second trial. He claims because his attorney at the first trial chose not to cross-examine Williams,
then the admission of her testimony at the second trial violated his right to confrontation.
Petitioner’s suggestion that his counsel failed to object to the admission into evidence of
Williams’s prior testimony is simply untrue. The state filed a notice of intent to use prior
statements of an unavailable witness pursuant to La. Code Evid. art. 804 on August 3, 2009.31 At
a hearing held on August 31, 2009, trial counsel vigorously opposed the state’s request to use
Williams’s prior testimony.32 Counsel argued both that the prosecution failed to show that
Williams was deceased and therefore unavailable and that the statement should not be admitted
because Williams was not cross-examined by petitioner’s counsel during the first trial.33 The trial
court found that the state met its burden of demonstrating that Williams was unavailable and ruled

29 State Rec., Vol. 17 of 20, trial transcript of February 2, 2012, pp. 172-83.
30 To the extent that petitioner focuses on actions of the state trial court in limiting cross-examination regarding the content of
the letters, finding the letters inadmissible, and allowing the prosecution to read the letters, those actions were not the
performance of counsel. In other words, petitioner fails to state a cognizable challenge to counsel’s performance when he
complains of the trial court’s rulings regarding the letters.
31 State Rec., Vol. 13 of 20, Notice of Intent to Use Prior Statement of Unavailable Witness Pursuant to C.E. Art. 804 filed
August 3, 2009.
32 State Rec., Vol. 15 of 20, transcript of August 31, 2009.
33 Id, at pp. 28-29.

17

that her previous testimony could be submitted at the second trial.34 At trial, defense counsel
renewed their objections to the testimony and successfully argued against the prosecution’ s' request
to publish the transcript of Williams’s testimony to the jury.35 The testimony was instead read to
the jury 36 Again, the mere fact that the challenge to the testimony was unsuccessful is not
evidence that counsel performed deficiently. See Martinez, 99 F. App’x at 543.
Petitioner’s last claim of ineffective assistance of trial counsel is that his counsel requested
an unnecessary oral continuance.37 However, “a decision on whether or not to seek a continuance
is inherently one of trial strategy and, as such, is generally accorded great deference.” Johnson v.
Cain. Civ. Action No. 08-4208,2009 WL 2366385, at *8 (E.D. La. July 29,2009); Brooks v. Cain,
Civ. Action No. 06-1869, 2009 WL 3088323, at *3 (E.D. La. Sept. 21, 2009) (citing McVean v.
United States. 88 F. App’x 847, 849 (6th Cir. 2004)); Moore v. Casperson, 345 F.3d 474, 490 (7th
Cir. 2003)).
Here, after petitioner’s first conviction was vacated, the Louisiana Supreme Court
remanded the case for further proceedings on April 30, 2008.38 On December 1, 2008, the trial
court appointed counsel from the Louisiana Capital Assistance project to represent petitioner.39
On January 23, 2009, the indictment was amended to charge petitioner with the lesser offense of
second degree murder, petitioner’s counsel withdrew (presumably because petitioner was no
longer charged with a capital offense), and a trial was scheduled for February 17, 2009.
However, on February 17,2009, the same day the trial was set to commence, new counsel enrolled
for petitioner and requested a continuance. That request was granted and a status hearing was

34 Id. at p. 29.
35 State Rec., Vol. 16 of 20, trial transcript of February 2, 2012, pp. 76-79.
36 Id. at pp. 82-87.
37 Rec. Doc. 3, pp. 37-38.
38 State v. Snvder. 982 So. 2d 763 (La. 2008); State Rec., Vol. 13 of 20.
39 State Rec., Vol. 13 of 20, minute entry dated December 1, 2008.
40 State Rec., Vol. 13 of 20, minute entry dated January 23, 2009.

18

scheduled for April 9, 2009.41 While the reason for the continuance was not specified in the
minutes, it is safe to assume that, because petitioner’s new counsel had just enrolled, he needed
time to familiarize himself with the case and to prepare for trial. At the status hearing on April 9,
2009, defense counsel then requested and was granted a second continuance.42 The reason for the
continuance was petitioner had not been transferred from the Louisiana State Penitentiary in
Angola to the Jefferson Parish Correctional Center as ordered, thereby inhibiting counsel’s ability
to prepare for trial.43
Defense counsel obviously decided that the delays would be beneficial, and this Court has
no sound basis to second-guess that determination. Furthermore, a continuance “to gain time to
complete necessary trial preparation” does not constitute an unreasonable act by counsel. United
States v. Webb, 796 F.2d 60, 63 (5th Cir. 1986); Brownlee v. Knipp. No. CV 12-0859, 2012 WL
6773361, at *33 (C.D. Cal. Nov. 5, 2012), adopted. 2013 WL 74705 (C.D. Cal. Jan. 4, 2013);
Gibbs v. Koster, No. 4:12CV1714, 2015 WL 5157522, at *7-8 (E.D. Mo. Sept. 2, 2015) (holding
that petitioner failed to demonstrate that his counsel’s motions for continuances were unreasonable
or that the results of the proceedings would have been different had counsel not requested the
continuances); Jones v. Haws, No. CIV S-09-1735,2011 WL 4479842, at *13 (E.D. Cal. Sept. 26,
2011) (“Here, Jones fails to demonstrate deficient performance by defense counsel Lauper. The
record reflects that Lauper, having been newly appointed, was forced to choose between obtaining
a continuance over Jones’s personal objection in order to properly prepare for trial, or, in the

41 State Rec., Vol. 13 of 20, minute entry dated February 17, 2009.
42 State Rec., Vol. 13 of 20, minute entry dated April 9, 2009.
43 Icf The Department of Corrections did not originally comply with the trial court’s February 26,2009 order to house petitioner
at the Jefferson Parish Correctional Center. State Rec., Vol. 13 of 20, order dated February 26, 2009. On April 29, 2009, after
the trial court ordered the Department of Corrections and the Warden to show cause why they should not be held in contempt
for failing to abide by the order, petitioner was transferred to the Jefferson Parish Correctional Center. State Rec., Vol. 13 of
20, Rule to Show Cause Why Warden Should Not be Held in Contempt for Failing to Abide,by District Court’s Order filed
March 27,2009; order dated April 15,2009; minute entry dated May 4,2009; Petition for a Writ of Habeas Corpus filed August
6,2010.

19

alternative, proceeding to trial unprepared but within the statutory time period. Lauper sought the
continuance for a valid reason and the decision did not constitute deficient performance. To the
contrary, it may have constituted ineffective assistance for Lauper to proceed to trial inadequately
prepared to defend Jones.”); Taylor v. Dormire. No. 4:06-CV-426, 2007 WL 1063534, at *5 (E.D.
Mo. Apr. 9, 2007) (“Moving for continuances in order to prepare for trial properly is not deficient
performance by counsel”). Without more, petitioner has obviously failed to meet his burden of
proof with respect to this ineffective assistance claim.
Furthermore, petitioner has not demonstrated any prejudice as a result of counsel’s actions.
There is no evidence that his counsel was prepared to try the case when he was appointed on
February 17,2009. The delay of the trial therefore allowed counsel the necessary time to properly
prepare the defense by reviewing the discovery, consulting with petitioner, reviewing the earlier
proceedings, and filing necessary motions. Had the delay not been sought and granted, the
alternative would have been for petitioner to proceed to trial with unprepared counsel.
Petitioner’s last claim of ineffective assistance is that his appellate counsel was ineffective
for failing to brief two issues on appeal. Specifically, he claims his appellate counsel should have
asserted a claim that trial counsel was ineffective for seeking continuance of the trial. He also
claims his appellate counsel should have challenged the trial court’s denial of petitioner’s pro se
motion to quash and writ of habeas corpus.
With respect to such ineffective assistance of appellate counsel claims, it must be
remembered that counsel “is not obligated to urge on appeal every nonfrivolous issue that might
be raised (not even those requested by defendant).” West v. Johnson. 92 F.3d 1385, 1396 (5th Cir.
1996).

Rather, “[experienced advocates since time beyond memory have emphasized the

importance of winnowing out weaker arguments on appeal and focusing on one central issue if

20

possible, or at most on a few key issues.” Jones v. Barnes. 463 U.S. 745, 751-52 (1983). Far from
evidencing ineffectiveness, an appellant counsel’s restraint often benefits his client because “a
brief that raises every colorable issue runs the risk of burying good arguments ... in a verbal mound
made up of strong and weak contentions.” Id- at 753. As a result, the applicable test to be applied
in assessing such a claim is whether the issue ignored by appellate counsel was “clearly stronger”
than the issues actually presented on appeal. See, e.g., Diaz v. Ouarterman, 228 F. App’x 417,427
(5th Cir. 2007); accord Smith v. Robbins, 528 U.S. 259, 288 (2000).
In the instant case, appellate counsel raised three assignments of error on direct appeal: (1)
the trial court erred in denying his motion for mistrial after the jury was shown petitioner’s advice
of rights form, which indicated that he was originally charged with first degree murder; (2) the
trial court erred in allowing the state to introduce “other crimes” evidence; and (3) the trial court
erred in allowing the state to read petitioner’s personal letters even though they were never offered
or intended to be introduced at trial. Although those three claims were ultimately unsuccessful, it
can hardly be said that the two claims petitioner now proposes were “clearly stronger.”
As toN petitioner’s contention that appellate counsel should have raised a claim that
petitioner’s trial counsel was ineffective for seeking continuance of the trial, that contention is
clearly meritless. Louisiana law in fact discourages the assertion of ineffective assistance of
claims on direct appeal. See, e.g.. State v. Truitt. 500 So. 2d 355,359 (La. 1987) (“The appropriate
avenue for asserting a claim for ineffective assistance of counsel is through postconviction relief,
not by direct appeal.”). As a result, Louisiana state courts normally decline to consider such claims
on direct appeal unless the record is sufficient to decide the issue without the need for an additional
post-conviction hearing to obtain additional evidence. See, e.g.. State v. Ratcliff. 416 So. 2d 528,
530 (La. 1982). Obviously, counsel performance is not deficient, and no prejudice results, where,

21

as here, appellate counsel’s actions conform to such state court norms and his client does not lose
the opportunity to have his claim addressed later at a more appropriate time.
As to petitioner’s contention that appellate counsel was ineffective for failing to challenge
the trial court’s denial of the motion to quash and the writ of habeas corpus, that contention fares
no better. The trial court’s ruling had already been challenged and upheld in pretrial supervisory
writs. On February 3, 2011, the Louisiana Fifth Circuit Court of Appeal found the trial court’s
ruling to be correct, holding:
Relator, Allen Snyder, brings this writ application for review of the trial
court’s denial of his motion to quash the indictment for failure to timely
prosecute.[FN4] Snyder was originally indicted on September 19, 1995 for first
degree murder. He was tried and convicted of the charge and sentenced to death.
However, the United States Supreme Court overturned that conviction and sentence
in Snyder v. Louisiana.
U.S.
., 228 S.Ct. 1203, 170 L.Ed.2d 175 (2008)
rendered on April 30, 2008, and remanded the matter to the trial court for further
proceedings. Snyder was re-indicted on January 29, 2009 for second degree
murder.
[FN 4] This writ application was filed by defense counsel. Relator has also filed
a writ seeking review of the same ruling. State v. Snvder. 11-K-14.

Snyder entered a plea of not guilty on February 12, 2009 and a trial date
was set for February 17, 2009. For various reasons the new trial did not occur, and
on August 6, 2010, Snyder filed a pro se motion to quash the indictment and a
petition for writ of Habeas Corpus. The State opposed the motion and after a
hearing, the trial court denied the motion to quash. That ruling is the subject of this
writ application.
La. C.Cr.P. art. 582 provides, that “(w)hen a defendant obtains a new trial
or there is a mistrial, the state must commence the second trial within one year from
the date the new trial is granted, or the mistrial is ordered, or within the period
established by Article 578[FN 5], which ever is longer.” The prescriptive period
set forth in the above article commences to run when the court’s judgment becomes
final. [FN 6] La. C.Cr.P. art. 922 provides that a judgment rendered by the Supreme
Court becomes final when the delay for applying for a rehearing (14 days) has
expired.
[FN 5] La. C.Cr.P. art. 578 allows two years from the date of the institution of
the prosecution.
[FN 6] State v. Brown. 451 So.2d 1074 (La. 1984).

22

Therefore, the State had one year and 14 days from April 30, 2008, or until
May 14, 2009 to commence the new trial.
Pursuant to La. C.Cr.P. art. 580 the time limitation is suspended when a
defendant filed a motion to quash or another preliminary plea until a ruling on that
motion. However, article 580 also provides that “in no case shall the state have less
than one year after the ruling to commence the trial.”
Relator concedes that he filed a motion to continue for the purpose of
enrollment of new counsel on February 17, 2009 and also asked for a status date.
That motion was granted by the trial court. Relator also states that he filed a motion
for continuance on April 9, 2009.
Relator contends that those two defense motions to continue trial did not
suspend the time limitation since those motions were granted the same day they
were made. We disagree.
Pursuant to La. C.Cr.P. art. 580, the prescriptive period was suspended
when relator filed the motion for continuance of trial to enroll new counsel on
February 17,2009, giving the State one year after the ruling thereon made that same
date or until February 17, 2010 to commence trial.
On June 11, 2009, within the extended limitations period, relator filed
omnibus motions to suppress evidence, statements, and identifications. Those
motions were also preliminary plea that suspended the prescription period until
March 8, 2010, when they were denied. On March 4, 2010, relator filed a motion
to quash which suspended the prescription period until the trial judge denied it on
May 27, 2010, thereby giving the State until May 27, 2011 to commence trial.
On July 23, 2010, within the extended limitations period, relator filed an
application for supervisory writs in this Court seeking review of the trial judge’s
granting of the Prieur motion, which suspended the prescription period until August
20, 2010, when this Court denied relator’s application. Thus, the State would have
had until August 20, 2011, one year from the date of the ruling, in which to
commence trial. Relator filed a writ application with the Louisiana Supreme Court
challenging this Court’s ruling. On November 19, 2010, the Supreme Court denied
writs, which would give the State until November 11, 2011, to commence trial.
On August 6, 2010, relator filed a petition for writ of habeas corpus and
another motion to quash (that form the basis of the instant writ application), that
suspended the prescription period until the trial judge denied it. Relator filed the
instant writ applications which will suspend the prescription period until this Court
rules on them, thereby giving the State one year from the date of this Court’s ruling
to commence trial.
Accordingly, we find no error in the trial court’s decision to deny the motion
to quash.44

44 State v. Snyder. No. 1 l-K-23 (La. App. Feb. 3, 2011); State Rec., Vol. 13 of 20. On that same date, the Court of
Appeal likewise denied the pro se writ application referenced in footnote 4 of the opinion. State v. Snyder. No. 11K-14 (La. App. 5th Cir. Feb. 3, 2011). (“For reasons set forth in a related writ application, State of Louisiana v. Allen
Snyder, 1 l-K-23, we find no error in the trial court’s decision to deny relator’s motion to quash the indictment for
untimely prosecution.”).
23

On May 20, 2011, the Louisiana Supreme Court then likewise denied the related writ application
without assigning additional reasons.45
While it is true that the denial of such pretrial writs does not preclude a defendant from
raising the same issue in a subsequent direct appeal, such repetitive challenges face daunting
obstacles and, therefore, rarely succeed. As the Louisiana Fourth Circuit Court of Appeal noted
in a case in which a defendant similarly attempted to relitigate the denial of pretrial writs
challenging a motion to quash:
Both this court and the Louisiana Supreme Court denied [defendant’s] writ
application seeking review of the district court’s ruling denying his motion to
quash. Under the law of the case doctrine, appellate courts generally decline to
reconsider their own rulings of law on a subsequent appeal in the same case. State
v. Duncan, 11-0563, p. 26 (La.App. 4 Cir. 5/2/12), 91 So.3d 504, 520 (citing Pitre
v. Louisiana Tech University. 95-1466, p. 7 (La. 5/10/96), 673 So.2d 585, 589).
The law of the case doctrine applies to all prior rulings or decisions of an appellate
court or the Supreme Court in the same case, not only those arising from an appeal.
Duncan, supra (citing State v. Molineux. 11-0275, p. 3 (La.App. 4 Cir. 10/19/11),
76 So.3d617, 619).
Applying the law of the case doctrine, an appellate court will not reverse its
pretrial decision unless the defendant presents new evidence tending to show that
the pretrial decision was patently erroneous and produced an unjust result. Duncan.
supra (citing State v. Gillet. 99-2474, p. 5 (La.App. 4 Cir. 5/10/00), 763 So.2d 725,
728). Although a different decision on appeal is not absolutely precluded, judicial
efficiency demands that great deference be accorded to the earlier decision. Id,
Here, [defendant] failed to present any new evidence bearing on the
correctness of this court’s prior decision denying his pre-trial writ application
seeking review of the district court’s denial of his motion to quash. State v. Lewis.
15-0021, (La. App. 4 Cir. 3/5/15) (unpub.). Thus, [defendant] has failed to show
that this court should not follow the law of the case doctrine and decline to exercise
its discretion to reconsider its prior ruling on this issue.
Regardless, turning to the merits of the motion to quash, we reach the same
result. A trial court’s ruling on a motion to quash is discretionary and should not
be disturbed by an appellate court absent a clear abuse of discretion. State v. Love.
00-3347, pp. 9-10 (La. 5/23/03), 847 So.2d 1198, 1206 (“[because the
complementary role of trial courts and appellate courts demands that deference be
given to a trial court’s discretionary decision, an appellate court is allowed to
reverse a trial court judgment on a motion to quash only if that finding represents
an abuse of the trial court’s discretion.”). See also State v. Sorden. 09-1416, p. 3
(La.App. 4 Cir. 8/4/10), 45 So.3d 181, 183; State v. Kitchens. 09-0834,09-0836, p.
45 State v. Snyder. 63 So. 3d 976 (La. 2011); State Rec„ Vol. 13 of 20.

24

4 (La.App. 4 Cir. 3/24/10), 35 So.3d 404, 406; State v. Ramirez, 07-0652, p. 4
(La.App. 4 Cir. 1/9/08), 976.So.2d 204, 207. As the Supreme Court explained in
Love. “[w]hen a trial judge exercises his discretion to deny a motion to quash, he
presumably acts appropriately, based on his appreciation of the statutory and
procedural rules giving him the right to run his court.” 00-3347 at p. 12, 847 So.2d
at 1208.
State v. Lewis. 209 So. 3d 202, 209-10 (La. App. 4th Cir. 2016) (footnote omitted).
Here, the instant petitioner likewise points to no “new evidence tending to show that the
pretrial decision was patently erroneous and produced an unjust result.” Accordingly, considering
the deference that must be accorded to both the trial court’s discretionary decision and the rulings
of the Court of Appeal and the Louisiana Supreme Court on the pretrial writ applications, there is
no reason to believe that this claim, even if it had been reasserted on direct appeal, had any
reasonable likelihood of success.46
For all of these reasons, it is clear that petitioner has not demonstrated that either his trial
or appellate counsel performed deficiently or any resulting prejudice. Accordingly, petitioner’s
claims should be denied.

46 In his federal application, petitioner also opines that trial counsel’s oral motion for a continuance was not valid. It
is unclear whether those references are intended merely as further support for his contention that his motion to quash
should have been granted or whether they are instead intended as a separate and distinct claim appellate counsel should
have asserted on appeal.
If he intended the former, it must be noted that the contention does not in fact support his claim regarding the
motion to quash. Under Louisiana law, an oral motion for continuance suspends the limitations period. State v. Watts.
738 So. 2d 628, 630 (La. App. 5th Cir. 1999) (“[WJhether the writing requirement was followed in this case has no
bearing on the end result - continuances were granted for defendant and suspension periods therefore exist.”); State
v. Jones, 620 So. 2d 341, 343 (La. App. 5th Cir. 1993) (holding that an oral continuance by defense suspended the
prescriptive period set forth in article 578); State v. Bruiic. No. 2009 KA 0719, 2009 WL 3452893, at *4 (La. App.
1st Cir. Oct. 23, 2009) (citing cases); State v. Lathan. 953 So. 2d 890, 895 (La. App. 2d Cir. 2007).
If he intended the latter, then the Court notes that a separate claim on that basis would also lack merit and,
therefore, is not “clearly stronger” than the claims asserted by appellate counsel. It is true that motions for a
continuance are generally required to be in writing and filed seven days prior to the commencement of trial. La. Code
Crim. P. art. 707. However, there is an exception to that requirement whenever the grounds for the continuance arise
unexpectedly. State v. Washington. 407 So. 2d 1138, 1148 (La.1981); State v. Shannon. 61 So. 3d 706,714 (La. App.
5th Cir. 2011). In this case, petitioner’s original defense counsel was allowed to withdraw, and his new counsel was
not enrolled until February 17, 2009, the same day the trial was set to begin. Thus, it would not have been possible
for new counsel to comply with article 707.

25

RECOMMENDATION
It is therefore RECOMMENDED that the federal application seeking habeas corpus relief
filed by Allen Snyder be DISMISSED WITH PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United Services Auto. Ass’n.
79 F.3d 1415, 1430 (5th Cir.. 1996) (en banc).47
New Orleans, Louisiana, this sixth day of September, 2018.

I

JAMS VAN MEERVELD
UNITED STATES MAGISTRATE JUDGE

47 Douglass referenced the previously applicable ten-day period for the filing of objections. Effective December 1,
2009, 28 U.S.C. § 636(b)(1) was amended to extend that period to fourteen days.

26

®Jp$ujrratt£ Court of

of ^Louisiana

STATE EX REL. ALLEN SNYDER
NO.

2015-KH-1056

VS.
STATE OF LOUISIANA

IN RE: Allen Snyder; - Plaintiff; Applying For Supervisory and/or
Remedial Writs, Parish of Jefferson, 24th Judicial District Court
Div. H, No. 95-5114; .to the Court of Appeal, Fifth Circuit, No.
15-KH-158;

October 17, 2016
.Denied.

See per curiam.
JTK
JLW
GGG
MRC
SJC

Supreme Court of Louisiana
October 17,2016

Oeputy

■ Clerk//of Court
For the Court

SfFENDra

SUPREME COURT OF LOUISIANA

No. 15-KH-1056

OCT 3 7 2016

STATE EX REL. ALLEN SNYDER
v.
STATE OF LOUISIANA

ON SUPERVISORY WRITS TO THE TWENTY-FOURTH
JUDICIAL DISTRICT COURT, PARISH OF JEFFERSON

PER CURIAM:

f

Denied. Relator fails to show he received ineffective assistance of counsel
under the standard of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). Relator's remaining claims are repetitive and/or unsupported.
La.C.Cr.P. art. 930.2; La.C.Cr.P. art. 930.4.
Relator has now fully litigated his application for post-conviction relief in
state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a second or successive application
only under the narrow circumstances provided in La.C.Cr.P. art. 930.4 and within
the limitations period as set out in La.C.Cr.P. art. 930.8. Notably, the Legislature in
2013 La. Acts 251 amended La.C.Cr.P. art. 930.4 to make the procedural bars
against successive filings mandatory. Relator's claims have now been fully litigated
in state collateral proceedings in accord with La.C.Cr.P. art. 930.6, and this denial
is final. Hereafter, unless he can show that one of the narrow exceptions
authorizing the filing of a successive application applies, relator has exhausted his
right to state collateral review. The District Court is ordered to record a minute
entry consistent with this per curiam.

Application For Writs
No. 15-KH-158
COURT OF APPEAL, FIFTH CIRCUIT
STATE OF LOUISIANA
MARCH 09,2015
i.

5

Deputy Clerk

ALLEN SNYDER
VERSUS
N. BU ILL CAIN, WARDEN
LOUISIANA STATE PENITENTIARY

IN RE ALLEN SNYDER
SUPERVISORY WRIT FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT, PARISH OF
tEFFERSON^ATE OF LOUISIANA, DIRECTED TO THE HONORABLE GLENN B. ANSARDI, DIVISION "H",
N UMBER 95-5114
Attorneys for Relator:
Allen Snyder #169143
Louisiana State Penitentiary
Angola, LA 70712
Attorneys for Respondent:
Terry M. Boudreaux
Assistant District Attorney
200 Derbigny Street
Gretna, LA 70053
(504) 368-1020

WRIT DENIED
(SEE ATTACHED DISPOSITION)

Gretna, Louisiana, this J)_

6

APPENDIX

E

day of May, 2015.

ALLEN SNYDER

NO. 15-KH-158

VERSUS

FIFTH CIRCUIT

N. BURL CAIN, WARDEN LOUISIANA
STATE PENITENTIARY

COURT OF APPEAL
STATE OF LOUISIANA

WRIT DENIED
In his pro se writ application, relator alleges that the district court erred in its
January 7, 2015 denial of his application for post-conviction relief which was filed on
August 8, 2014.
In his writ application, for the first time, relator raises and briefs his allegations of
ineffective assistance of counsel concerning the State’s introduction of evidence of other
crimes and bad acts, his right to full confrontation and cross-examination of the State’s
witnesses, and the injustice he suffered when trial counsel asked for an unnecessary oral
continuance. Relator also raises and briefs his argument of ineffective assistance of
appellate counsel when she failed to assign as error his motion to quash and writ of
habeas corpus on direct appeal. Because appellate courts will only review issues that
were submitted to the trial court, we decline to review relator’s new ineffective assistance
of counsel claims. See U.R.C.A. Rule 1-3.
To the extent that relator’s writ application seeks to challenge the denial of the one
claim of ineffective assistance of counsel originally set forth in his application for post­
conviction relief, we find that the district court did not err in denying this claim on
procedural grounds. In his application for post-conviction relief, relator raised as claim 3
that his trial attorneys were ineffective when they failed to recognize and object to the
discriminatory practice in selecting the jury pool. In his writ application, relator claims
that as a Batson violation, his trial counsel was ineffective for not objecting to the
“prosecution’s consistent manipulation in choosing prospective jurors.” Upon review, we
find that the district court did not err in denying this claim of ineffective assistance of
counsel, finding that relator failed to carry his burden of proof under La. C.Cr.P. art.
930.2, in that the claim lacked specificity and failed to meet or even allege the necessary
burden of proof. Further, relator failed to demonstrate any abuse in the district court’s
ruling to summarily deny the application for post-conviction relief. Thus, relator’s
request that this Court reverse the January 7, 2015 ruling and remand the matter to the
district court for an evidentiary hearing is hereby denied.
For the foregoing reasons, this writ application is denied.
Gretna. Louisiana, this V

Jay of May, 2015.

rE
Zc/h/yl

' GRAVOIS

JUDGE.

JUDGE ROBERT M. MURPHY

4-:

JUDGE STEPHEN J. WINDHORST

A TRUE COPY
CKETNA
MAY 0 5 2015
DaERK
llUURT OF APPEAL, FJF'fyfiCIRCUIT

MiKVlLJfc

f'

v^

\

TWENTY FOURTH JUDICIAL DISTRICt COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA
DIVISION “H”

NO. 95-5114
STATE OF LOUISIANA

received

VERSUS

FEB 5 _ 20b

ALLEN SNYDER

W.FP.S.O.

RECEIVED

pEB 09 2015
Legal Programs Departme7,t
FILED:

(jamuary. if. 2d js'

DEPUTY^CLERK
ORDER

This matter comes before the court on the petitioner’s APPLICATION FOR POSTCONVICITON RELIEF. STAMPED AS FILED AUGUST 8. 2014. THE STATE’S
RESPONSE. STAMPED AS FILED OCTOBER 6. 2014. AND THE PETITIONER’S
OBJECTIONS TO STATE’S ATTEMPT TO HAVE APPELLANT CLAIMS
DISMISSED. STAMPED AS FILED OCTOBER 21. 2014.
The petitioner challenges his conviction for the second degree murder of his wife, Mary
Snyder, and his resulting life sentence. His conviction and sentence from this trial were upheld
on direct appeal. State v. Snyder, 128 So.3d 370 (La. 5 10/9/13), writ denied, 138 So.3d 643 (La.
4/25/14). The issues raised on appeal were: prejudice from the jury’s viewing a document that
indicated Petitioner had previously been charged with first degree murder, admission of evidence
of prior bad acts, and confrontation claims arising from the accused’s letters to the victim were
read.
Claims Raised
The petitioner raises ten separate claims in his application for post-conviction relief. He
argues:

L

1. The trial court erred by denying petitioner’s motion to suppress evidence and
allowing the state to introduce evidence of other crimes.
2. The trial court erred by denying petitioner’s Motion to Quash and Writ of Habeas
Corpus.
3. The trial court erred when the State monopolized the entire jury pool and petitioner’s
trial attorney and appellate attorney were ineffective.
4. The trial court erred in failing to grant the motion for mistrial.
5. The trial court erred in allowing the state to read petitioner’s personal letters though
they were never offered or intended to be introduced at trial.
6. The trial court erred in allowing the most damaging statement be injected into
petitioner’s trial by the coerced testimony of Gwendolyn Williams, “That She Seen
Petitioner with a Knife.” .
7. The trial court erred in not considering Detective Michael Cooke’s testimony or his
report about the state’s key witness Ms. Wijliams.
JJ. ''.The trial court erred in over-looking the testimony of Sgt. Matthew Bonura and his
report about the June 18, 1995 incident.
9. The trial court erred in allowing the state to compel Mary B. Snyder against her will
and coerced to commit perjury and testified to that effect.
10. The trial court erred by denying petitioner’s motion for new trial and a motion for
post-verdict judgment of acquittal.

c..-

The state raises various procedural bars on all claims. By contrast, the petitioner files a
motion urging the court to find all procedural defaults were excused.

APPENDIX

F

SERVICE
Procedural Objections
Post-conviction law contains many strict procedural requirements. Of particular
importance is LSA-C.Cr.P. art. 930.4, which, at the time of the petitioner’s filing, provides six
separate procedural objections, specifically as follows:
A. Unless required in the interest of justice, any claim for relief which was fully
litigated in an appeal from the proceedings leading to the judgment of conviction
and sentence shall not be considered.
B. If the application alleges a claim of which the petitioner had knowledge and
inexcusably failed to raise in the proceedings leading to conviction, the court shall
deny relief.
C. If the application alleges a claim which the petitioner raised in the trial court
and inexcusably failed to pursue on appeal, the court shall deny relief.
D. A successive application shall be dismissed if it fails to raise a new or different
claim.
E. A successive application shall be dismissed if it raises a new or different claim
that was inexcusably omitted from a prior application.
F. If the court considers dismissing an application for failure of the petitioner to
raise the claim in the proceedings leading to conviction, failure to urge the claim
on appeal, or failure to include the claim in a prior application, the court shall
order the petitioner to state reasons for his failure. If the court finds that the failure
was excusable, it shall consider the merits of the claim.
LSA-C.Cr.P. art. 930.4.
The state urges this court to find that the procedural bar of LSA-C.Cr.P. art. 930.4(A)1
applies to the petitioner’s first, fourth, and fifth claims. On review, the court agrees. These three
claims were raised on appeal and thus the court does find the procedural bar precludes further
review.
The state urges this court to find the procedural bar of LSA-C.Cr.P. art. 930.4(C ) apply
to petitioner’s second, sixth, seventh, eighth, ninth, and tenth claims. On review, the court agrees.
These claims were known prior to appeal but not brought. The court finds the procedural bar
precludes further review.
The state urges this court to find the procedural bar of LSA-C.Cr.P. art. 926(B)(3) bars
relief. That article requires that a petitioner include a “statement of the grounds upon which relief
is sought, specifying with reasonable particularity the factual basis for such relief.” In addition to
this provision, at all times the burden of proof in a post-conviction case is on the petitioner. LSAC.Cr.P. art. 930.2. Petitioner’s brief contains a bare conclusion that his trial and appellate
attorneys were ineffective in not objecting to jury composition. The court finds this claim
procedurally barred by lack of specificity and failing to meet, or even allege, the necessary
burden of proof.
The court is aware that the petitioner argues his failure to raise issues is excusable.
However, the court does not agree. The Supreme Court of Louisiana has held:
We also note that the required Uniform Application for Post Conviction relief, see
La.C.Cr.P. art. 926(D); La.S.Ct.R. App'x A; U.R.C.A. App'x A, requires an
inmate filing an application for post-conviction relief to “explain why” he may
have “failed to raise [a particular] ground” in earlier proceedings. The Uniform
Application thus in most cases both provides an inmate with an opportunity to
explain his failure to raise a claim earlier and provides the district judge with
enough information to undertake the informed exercise of his discretion and to
determine whether default of an application under La.C.Cr.P. art 930.4(B), art.
930.4(C), or art. 930.4(E) is appropriate. Proper use of the Uniform Application
thus satisfies the requirements of La.C.Cr.P. art. 930.4(F) without the need for
further filings, formal proceedings, or a hearing.
State 'ex rel. Rice v. State, 749 So.2d 650 (La. 1999).

1 Throughout its brief, the state quotes language from the statute but fails to cite to the specific
paragraphs in question.

SERVICE
In accordance with Rice, the court finds that the petitioner,'an experienced pro se litigant,
had an opportunity to explain the failure to raise his ten post-conviction claims properly. The
court will not order any further pleadings on the issue of excusability and will issue a ruling
based on the pleadings submitted to date.
Conclusion
For the reasons stated above, the court finds the procedural objections have merit. The
petitioner is not entitled to post-conviction relief because the claims he raises are procedurally
barred.
Accordingly,
IT IS ORDERED BY THE COURT that the application for post-conviction relief be
and is hereby DENIED.
Gretna, Louisiana this

n*

day of tfoitlut) rt

y-

,20 IS'.

JUDGE
PLEASE SERVE:
DEFENDANT: Allen Snyder, DOC # 169143, Louisiana State Penitentiary, Angola, LA 70712 \
District Attorney’s Office, Terry Boudreux, Anne Wallis, 200 Derbigny St., Gretna, LA 70053

ON fFle m th?sFTHfEice<I01NaL
DEPUTE CLERK
24TH JUDICIAL DISTRICT COUR1
PARISH OF JEFFERSON

Supreme fflourf of

of Jloumana

STATE OF LOUISIANA
NO.

2013-KO-2 64 7

VS.
ALLEN SNYDER

Snyder, Allen; - Defendant; Applying For Writ of Certiorari
IN RE;
24th Judicial District Court
and/or Review, Parish of Jefferson
Div. H, No.'95-5114; to the Court of Appeal, Fifth Circuit, Nos.
12-KA-8 96, 12-KA-8 96;

'April 25-, 2014
Denied.
BJJ
JPV
JTK
JLW
GGG
MRC
JDH

Supreme Court of Louisiana
April 25,2014

U&MIvl. i.
Deputy

Clerk of
For the C&urt

APPENDIX

i

STATE OF LOUISIANA

NO. 12-KA-896

VERSUS

FIFTH CIRCUIT

ALLEN SNYDER

COURT OF APPEAL
STATE OF LOUISIANA

ON APPEAL FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
NO. 95 -5114, DIVISION “H”
HONORABLE GLENN B. ANSARDI, JUDGE PRESIDING

October 9, 2013

SUSAN M. CHEHARDY
CHIEF JUDGE
Panel composed of Judges Susan M. Chehardy,
Marc E. Johnson, and Stephen J. Windhorst

PAUL D. CONN1CK, JR.
DISTRICT ATTORNEY
Twenty-Fourth Judicial District
Parish of Jefferson
TERRY M. BOUDREAUX
ANNE M. WALLIS - APPELLATE COUNSEL
J. BRANDON KINNETT
KELLIE M. RISH
ASSISTANT DISTRICT ATTORNEYS
Twenty-Fourth Judicial District
200 Derbigny Street
Gretna, Louisiana 70053
COUNSEL FOR APPELLEE,
STATE OF LOUISIANA
JANE L. BEEBE
ATTORNEY AT LAW
Louisiana Appellate Project
Post Office Box 6351
New Orleans, Louisiana 70174-6351
COUNSEL FOR APPELLANT,
ALLEN SNYDER

AFFIRMED

APPENDIX
i

.!;

On appeal, defendant seeks review of his conviction for second degree
murder and life sentence. For the following reasons, we affirm his conviction and
sentence.
Procedural History
This matter has an extensive procedural history. On August 29, 1996,
defendant, Allen Snyder, was convicted by a twelve-member jury of first degree
murder and subsequently sentenced to death. Defendant appealed his conviction.
In 1999, the Supreme Court of Louisiana conditionally affirmed his conviction and
sentence but remanded for a “nunc pro tunc hearing to determine whether
defendant was competent at the time of his trial.”1
On October 26, 2000, after a hearing as ordered by the Louisiana Supreme
Court, the district court ruled that, “Based on the evidence taken as a whole, the
Court finds that the defendant was competent on the date of his trial.”2 On April
14, 2004, the Louisiana Supreme Court affirmed.3

1 Stale V. Snyder, 98-1078 (La. 4/14/99), 750 So.2d 832, 854.
2 Stale v. Snyder, 95-5114 (La. Dist. Ct. 10/26/00), 2000 WL 35631882.
' 3 State v. Snyder, 98-1078 (La. 4/14/04), 874 So. 2d 739.

-2-

In 2005, the United States Supreme Court granted defendant’s petition for a
writ of certiorari, vacated the judgment, and remanded the case to the Louisiana
Supreme Court for consideration of defendant’s Batson4 claims, in light of MillerEl v. Dretke, 545 U.S. 231, 125 S.Ct. 2317, 162 L.Ed.2d 196 (2005)7 On remand,
the Louisiana Supreme Court found no merit in defendant’s claim that the State
excused potential jurors in a racially discriminatory manner and again affirmed
defendant’s conviction and sentence.6
The United States Supreme Court again granted petitioner’s writ of
certiorari.7 In Snyder v. Louisiana, 552 U.S. 472, 128 S.Ct. 1203, 170 L.Ed.2d 175
(2008), the United States Supreme Court held that the trial judge committed clear
error in rejecting defendant’s claim that the prosecution exercised peremptoiy
challenges based on race, in violation of Batson v. Kentucky, 476 U.S. 79, 106
S.Ct. 1712, 90 L.Ed.2d 69 (1986), which required reversal and remand of the
matter to the Louisiana Supreme Court. Thereafter, the Louisiana Supreme Court
remanded the matter to the district court for “further proceedings in accord with the
law.”8
On January 29, 2009, a Jefferson Parish Grand Jury indicted defendant on
one count of second degree murder, in violation of La. R.S. 14:30.1, for the
homicide of Howard Wilson. On February 12, 2009, defendant pled not guilty.
Subsequently, the State filed Notices of Intent to Use Evidence of Other Crimes.
On May 4, 2010, a Prieur9 hearing was held. On May 27, 2010, the trial court

‘ Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986).
5 Snyderv. Louisiana, 545 U.S. 1137, 125 S.Ct. 2956, 162 L.Ed.2d 884 (2005).
6 State V. Snyder, 98-1078 (La. 9/6/06), 942 So.2d 484, reh 'g denied, (La. 12/15/06).
7 Snyder v. Louisiana, 551 U.S. 1144,127 S.Ct. 3004,168 L.Ed.2d 726 (2007).
• State V. Snyder, 98-1078 (La. 4/30/08), 982 So.2d 763.
9 State v. Prieur, 277 So.2d 126 (La. 1973).

i

-3-

granted the State’s motion. Defendant sought review of that ruling in this Court,
which denied relief.10
On January 31,2012, trial of this matter commenced. After a three-day trial,
a twelve-member jury found defendant guilty as charged on February 2, 2012. On
March 1, 2012, the trial judge heard and denied numerous post-trial motions. That
same day, after defendant waived the statutory delays, the trial court sentenced
defendant, as statutorily mandated, to life imprisonment at hard labor, without
benefit of parole, probation, or suspension of sentence. Defendant timely filed a
Motion for Appeal, which was granted on March 5, 2012. This appeal follows.
Facts
In 1995, Allen Snyder and his then-wife, Mary Beth, had a troubled
marriage." According to Mary Beth, however, after the birth of their third child,
Allen became very controlling and jealous. He would not allow her to speak to
>Qther men and prohibited her from leaving the house alone.
Eventually, Allen’s jealousy escalated to physical abuse. Mary Beth
testified that, on March 18, 1995, Allen, using his hand, violently shoved her head
against the passenger side window of his car, which caused injuries to her face.
Mary Beth did not seek medical treatment that night.
About three months later, in May of 1995, Allen struck Mary Beth in the leg
with a baseball bat as she lay sleeping. She had a large bruise and limped for about
a week. Not long after that incident, Allen drove Mary Beth to an isolated road,
opened the trunk of his car, and threatened her that he could do “whatever he
wanted to” her and “nobody would ever find” her.

10 Stale v. Snyder, 10-628 (La.App. 5 Cir. 8/20/)0)(unpublished writ disposition), writ denied, 10-2129 (La.
11/19/10), 49 So.3d 391.
11 It is undisputed that both parties had engaged in extramarital relationships in 1994 or 1995.

-4-

That summer the violence escalated. On the morning of June 11,1995,
Allen “slammed” Mary Beth’s head into the wall of their children’s bedroom,
which caused injuries requiring hospitalization.12 After this instance, which their
children witnessed, Mary Beth took their children and went to stay at her parents’
house on Wilker Neal Street in River Ridge.
On June 18, 1995, Allen tried to speak with Mary Beth, but she refused.
Later that night, Allen disconnected the electrical box outside Mary Beth’s parents’
home, entered the home, and stabbed Mary Beth nine times in the neck, head, and
arms. Mrs. Snyder was treated at the hospital for her injuries.'3
Approximately two months later, on August 15, 1995, Allen called Mary
Beth to discuss reconciliation. Mary Beth agreed to meet with him the following
day, telling Allen that she had plans with her cousin that night. Allen, however,
wanted to begin their reconciliation that night so he paged Mary Beth numerous
times while he waited outside of her cousin’s house, which is less than a block
away from Mary Beth’s parents’ house.
In truth, Mary Beth went out with another man, Howard Wilson. Around
1:30 a.m., Howard Wilson drove Mary Beth back to her parents’ house. Allen,
who admitted that he was carrying a nine-inch-long knife to “scare” Mary Beth
into talking to him, was hiding next to a nearby house and waiting for Mary Beth
to return.

12 Daniel Kilian, former patrol officer for the Kenner Police Department, testified that, on June 11, 1995, he
responded to a call at the Snyder’s home at 508 Hanson Street in Kenner. When he arrived, he observed Mary Beth
Snyder, who was bleeding from her head and had a scratch on her face. She reported that Allen had pushed her head
into a wall in their children’s bedroom. Defendant was arrested in connection with this incident. Further, the parties
stipulated that the medical records for East Jefferson General Hospital would establish that Mary Beth Snyder was
admitted for medical treatment of injuries to her head on June 11, 1995.
13 Sergeant Bonura testified that, on June 18, 1995, he was dispatched to a residence on Wilker Neal in

response to an aggravated burglary. Upon arrival, he observed that the victim, Mary Beth Snyder, had sustained a
puncture wound to her neck. Sergeant Bonura interviewed witnesses and developed Allen Snyder as a suspect.
Further, the parties stipulated that the medical records for East Jefferson General Hospital revealed that Mary Beth
Snyder was admitted for treatment of numerous deep puncture wounds on June 18, 1995.

*^
-5-

Not long after Howard Wilson stopped his car in front of Mary Beth’s
parents’ house, Allen yanked open the driver’s side door, leaned over Howard
Wilson, and stabbed Mary Beth in the face, which, according to Allen “slowed her
down.” Allen then “tussled” with Howard, who “got stabbed” because he floored
the car’s accelerator causing Allen to fall onto Howard during the fight. At some
point, Howard Wilson exited his car and stumbled down the street. Allen then got
into Wilson’s car and attempted to drive off with Mary Beth, who fought and pled
for her life. Almost immediately, however, Allen crashed the car into a nearby fire
hydrant then fled."’
That night, Gwendolyn Williams was walking home on Wilker Neal Street
when she observed a man “stooping down on the side of a trailer” with a knife.
She saw the man run from behind the trailer toward a car parked across the street,
then open the driver’s door, jump inside, and start “tussling” with the driver.
When the driver exited the car, Ms. Williams observed that his “throat was cut.”
Then, the car moved forward until it hit a fire hydrant.
According to Ms. Williams, she could hear Mary Beth Snyder, who was
inside the car, screaming for help while the man, who she recognized as Mary
Beth’s husband, “started cutting on her.” Ms. Williams, who had known Mary
Beth for a long time, screamed at the man, who jumped out of the car and fled.
Ms. Williams then helped Mary Beth, who was cut “everywhere she could be cut”
to her mother’s house and waited for the paramedics and the police to arrive.
Deputy Michael Cooke of the Jefferson Parish Sheriffs Office (“JPSO”)
was on patrol when he was dispatched to a “traffic accident” at 312 Wilker Neal
Street. When he arrived at the scene, he noticed that a white car had struck a fire
14 At trial, Allen testified that, when he approached the car, he observed Mary Beth and Howard kissing.
He further testified that Howard Wilson “jumped up and that’s how the scuffle started.” Allen testified that Wilson
was armed also. Further, Allen disarmed him then Wilson ran away. Finally, after trying to remove Mary Beth
from the car, Allen eventually ran back to his car, and went home.

-6-

hydrant. There were no passengers inside the vehicle; however, large amounts of
blood were present on the ceiling and dashboard. Deputy Cooke then located
Howard Wilson and Mary Beth Snyder, who each had sustained wounds that
appeared to be from a sharp instrument, such as a knife. After both victims were
determined to be free of weapons, they were rushed to the hospital.
According to medical records that were introduced at trial, Howard Wilson
died from exsanguination caused by sharp force injuries inflicted with a doubleedged blade. Dr. Susan Garcia, an expert forensic pathologist who performed the
autopsy on the victim, testified that Howard Wilson sustained nine sharp force
injuries to his upper torso. Of those nine, two wounds, which punctured his lung
and opened an artery, were lethal. The manner of Mr. Wilson’s death was
homicide.15
Meanwhile, as a result of investigation, Allen Snyder, defendant herein, was
developed as a suspect. Approximately 12 hours later, defendant called the police
claiming that he “cut some people and that he was considering suicide ” and
requested that an officer be sent to his house.
Officer Vic Giglio of the Kenner Police Department was dispatched to 508
Hanson Street, in Kenner, in response to the call. Defendant allowed Officer
Giglio to enter his house then retreated to another room in the house, where he
continued to speak with the dispatcher. Defendant did not have any visible
injuries. Almost immediately, Sergeant Giglio realized that defendant was.wanted
for questioning regarding the homicide on Wilker Neal so he detained defendant
for the Jefferson Parish Sheriffs Office.

That nigh't, Mary Beth Snyder sustained 19 stab wounds, which required surgical intervention and
hospitalization.

-7-

Detective Debbie Labit of the JPSO arrived at defendant’s home and advised
him of his Miranda16 rights. She observed injuries to defendant’s right hand, which
appeared to be fresh and “indicative of offensive-type of injuries during an
altercation where a knife is used.” Detective Labit had defendant transported to
the Detective’s Bureau, where defendant told her that “he had cut them and that he
had been beaten up emotionally by his ex - by his wife and that during the cutting,
that the male had taken the knife and fled with the knife.”17
Defendant’s statement was played for the jury-. In his statement, defendant
indicated that he drove to Wilker Neal Street to fmd his wife and who was with
her. Defendant stated that, when Mary Beth and Howard Wilson drove up, he was
going to leave but decided to approach them with a knife. Defendant indicated that
he intended to “scare her and her friend” “to make ‘em talk to me.” Defendant
stated that he walked up to the white car, opened the driver’s side door, and told
Howard Wilson “we have to talk.” According to defendant, Howard Wilson then
“jumped up” and they started to “scuffle.” Defendant stated that he pushed the
victim back into the car, and that both he and the victim were armed with knives.
Defendant stated, “my wife, she got stabbed first” then Howard Wilson got
stabbed because he pressed the accelerator, which caused defendant to fall onto
Wilson. Next, Wilson exited the car and ran one way while defendant ran the other
way. Defendant admitted that he threw the knife away as he fled.
On August 16, 1995, Lieutenant Schultz prepared and participated in the
execution of a search warrant for defendant’s residence and his vehicle. In
defendant’s house, deputies recovered a white t-shirt hidden in the attic that tested
positive for blood consistent with Howard Wilson’s DNA.

''•Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
17 The weapon .was never recovered.

-8-

Further, at trial, Mary Beth identified defendant, who is now her ex-husband,
as the person who stabbed her and Howard Wilson on the night of August 16,
1995. She also testified that neither she nor Howard Wilson had a weapon of any
sort during the altercation in question. After hearing the testimony and reviewing
the evidence, the twelve-person jury unanimously found defendant guilty as
charged of second degree murder.
Law and Argument
On appeal, defendant raises three assignments of error: first, the trial court
erred in denying his motion for mistrial; second, the trial court erred in allowing
the state to introduce other crimes evidence; and third, the trial court erred in
allowing the state to read Mr. Snyder’s personal letters even though they were
never offered or intended to be introduced at trial.
In his first assignment of error, defendant argues that the trial court erred in
denying his motion for mistrial. Specifically, defendant contends that a mistrial
was warranted when the jury was shown his advice of rights form, which indicated
that he was charged with first degree murder. Defendant submits that this
information was prejudicial.
In response, the State argues that pursuant to La. C.Cr.P. art. 841, defendant
failed to inform the trial court of the basis for his objection at the time of
occurrence. Thus, the State contends that this issue was not preserved for appeal.
Specifically, the State asserts that defendant did not inform the trial court of why
the jury “may have been prejudiced.” The State alternatively submits that there is
no indication in the record that the juiy ever saw the portion of the form that
indicated defendant was originally arrested for first degree murder, which tends to
indicate that defendant cannot substantiate his claim of prejudice. The State

further contends that, even if the jurors did see the subject reference on the form,
-9-

there was no showing that any of the jurors were influenced or could not render a
fair and impartial verdict based on the evidence presented, or that defendant’s
presumption of innocence was destroyed.
At trial, during the State’s direct examination of Detective Debbie Labit, the
prosecutor introduced the document that defendant signed with Detective Labit, in
which defendant waived his Miranda rights. The State offered the document into
evidence without objection by defendant and the trial court admitted it. When the
State requested publication of the document to the jury, the document was
momentarily shown via overhead projector.
The defense team immediately asked for a bench conference and alerted the
trial judge and the prosecutors that the document contained that language, “You are
under arrest for and will be charged with First Degree Murder.” The defense
counsel moved for a mistrial on the basis that the information was “prejudicial.”
After discussion, the trial judge determined that the language was an
oversight to all counsel, instructed the State to redact the language from the
document, and denied defendant’s motion for mistrial. Specifically, the trial judge
noted that the document was visible for such a “brief period of time, that any juror
would [not] have ... noticed that or if they did, place any sort of significance on
it... .but I don’t think that it would prejudice the jury to an extent that they couldn’t
make a fair and impartial decision.”
First, this Court has held that to preserve the right to seek appellate review of
an alleged trial court error, a party must state an objection contemporaneously with
the occurrence of the alleged error, as well as the grounds for that objection. La.
C.Cr.P. art. 841; State v. Smith, 11-638 (La.App. 5 Cir. 3/13/12), 90 So.3d 1114,
1123. An objection made after the evidence is before the jury is too late. Id. The

-10-

contemporaneous objection rule is also applied to motions for mistrials. Smith
supra.
Here, the defendant moved for a mistrial on the basis that the jury was
“prejudiced” by language in a document that was introduced into evidence without
objection. The defendant did not offer any further argument regarding how the
jury was prejudiced by the language on the document.
A defendant is limited on appeal to those grounds articulated at trial. State
v. Jackson, 450 So.2d 621 (La. 1984); State v. Styles, 96-897 (La.App. 5 Cir.
3/25/97), 692 So.2d 1222, 1228 n.2, writ denied, 97-1069 (La. 10/13/97), 703
So.2d 609. Here, defendant failed to articulate grounds for his objection at trial so
defendant has no grounds to raise on appeal. Thus, under La. C.Cr.P. art. 841, this
issue was not preserved for appeal.
Furthermore, even if this error had been preserved for appeal, we would find
no abuse of the trial court’s discretion in denying defendant’s motion for mistrial.
A mistrial is a drastic remedy and, except in instances in which a mistrial is
mandatory, is warranted only when a trial error results in substantial prejudice to
defendant, depriving him of a reasonable expectation of a fair trial. State v.
Dorsey, 11-745 (La.App. 5 Cir. 4/24/12), 94 So.3d 49, 56, writ denied, 12-998 (La.
10/12/12), 99 So.3d 39. Whether a mistrial should be granted is within the sound
discretion of the trial court and the denial of a motion for mistrial will not be
disturbed absent an abuse of discretion. Id.
When the conduct does not fall within the mandatory mistrial provisions of
La. C.Cr.P. art. 770," the judge has the sound discretion to determine whether the

18 La. C.Cr.P. art. 770 provides the following regarding prejudicial remarks;
Upon motion of a defendant, a mistrial shall be ordered when a remark or comment, made within
the hearing of the jury by the judge, district attorney, or a court official, during the trial or in

argument, refers directly or indirectly to:
(1) Race, religion, color or national origin, if the remark or comment is not material and relevant
and might create prejudice against the defendant in the mind of the jury; •

-11-

activity or comment so prejudiced the defendant that he could not receive a fair
trial. State v. Talbot, 408 So.2d 861, 866 (La. 1980); State v. Chairs, 12-363
(La.App. 5 Cir. 12/27/12), 106 So.3d 1232, 1249. The mere possibility that a
defendant was prejudiced is insufficient to support an appellate court’s finding of
reversible error. State v. Bradham, 638 So.2d 428, 429 (La.App. 5 Cir. 5/31/94).
In this case, the trial judge determined that a brief glimpse of language in a
document was not sufficient to establish prejudice in this case. The defendant has
not shown in his appellate argument that the trial court abused his discretion when
he made that determination. Finally, the mere possibility that a defendant was
prejudiced does not constitute reversible error. Bradham, supra. Based on the
foregoing, we find no error in the trial judge’s denial of defendant’s motion for
mistrial. This assignment of error lacks merit.
In his second assignment of error, defendant argues that the trial court erred
in allowing the State to introduce other crimes evidence under La. C.E. art.
404(B)(1). Specifically, defendant contends that the trial court erred in allowing
the introduction of previous domestic disputes between defendant and his wife,
which he maintains served no purpose other than to depict him as a chronic
domestic violence offender. Defendant argues that this error was not harmless
because, without this evidence, the jury would likely have convicted him of
manslaughter, rather than second degree murder.
The State responds that this issue was previously litigated so this Court
could decline further review under the “law of the case” doctrine. The State

(2) Another crime committed or alleged to have been committed by the defendant as to which
evidence is not admissible;
(3) The failure of the defendant to testify in his own defense; or
(4) The refusal of the judge to direct a verdict.
An admonition to the jury to disregard the remark or comment shall not be sufficient to prevent a
mistrial. If the defendant, however, requests that only an admonition be given, the court shall
admonish the jury to disregard the remark or comment but shall not declare a mistrial.

-12-

concludes that reconsideration should not be afforded because the defense has
failed to show palpable error or manifest injustice in this Court’s prior ruling.
Between October 21, 2009 and April 26, 2010, the State filed its original and
two amended Notices of Intent to Use Evidence of Other Crimes at defendant’s
trial. The Prieur hearing was held on May 4, 2010. At the hearing, the State
sought to introduce evidence that defendant had committed other bad acts against
his wife in the months leading up to the attack that resulted in the instant homicide.
These acts included: simple battery on March 11, T995, when defendant caused •
Mary Beth’s head to strike the interior window of his vehicle, causing injury;
aggravated battery in May of 1995, when defendant hit Mary Beth in the leg with a
baseball bat while she was sleeping; assault in May of 1995._when defendant
v threatened to “get rid of’ Mary Beth; arrest for simple battery on June 11, 1995,
when defendant pushed Mrs. Snyder’s head through the sheetrock of their
— children’s bedroom; aggravated battery on June_l.&,Jj>9-5,-when defendant disabled
the electricity to Mary Beth’s parents’ house, illegally entered the house, and
stabbed Mary Beth nine (9) times with a screwdriver, which required
hospitalization; and, finally, an incident in Julyof 1995, in which defendant called
Mary Beth stating that “he better not catch her out on the street.”
At that hearing, the State argued that the evidence showed that defendant
had a history of harassing, threatening, and physically abusing Mary Beth in the
months prior to the attack on her and the victim. The State indicated that
defendant was extremely jealous, frequently accused Mary Beth of seeing other
men, and followed his accusations with physical violence. The State contended
that, on the night in question, defendant’s jealousy again caused him to attack and
severely injure Mary Beth and kill Howard Wilson.

-13-

The State contended that the evidence of defendant’s escalating attacks
showed defendant’s intent, motive, identity, preparation, and plan. Specifically,
the State contended that the prior bad acts against Mary Beth demonstrated
defendant’s continuing intent to keep her from either leaving him and/or seeing
other men and motive for the fatal attack on Howard Wilson. Further, the evidence
reflected preparation and plan as well as defendant’s intent to kill or to inflict great
bodily harm on the victim, which is an element of the charged crime. The State
maintained that the prior bad acts put the attack on the victim in context and, thus,
were relevant. Finally, the State argued that the probative value outweighed any
prejudicial effect to defendant.
On May 27, 2010, the trial judge granted the State’s Prieur motions, which
would allow the State to introduce this evidence at trial. On July 23, 2010,
defendant sought supervisory review of the trial court’s ruling with this Court. On
August 20, 2010, this Court denied relief, as follows, in pertinent part:
Relevant evidence is evidence having any tendency to make the
existence of any fact that is of consequence to the determination of the
action more probable or less probable than it would be without the
evidence. La. C.E. art. 401. All relevant evidence is admissible
except as otherwise provided by positive law. Evidence which is not
relevant is not admissible. La. C.E. art. 402. Although relevant,
evidence may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues,
misleading the jury, or by considerations of undue delay, or waste of
time. La. C.E. art. 403.
Evidence of other crimes or bad acts committed by a criminal
defendant is generally not admissible at trial. La. C.E. art. 404(B)(1);
State v. Prieur, 277 So.2d 126, 128 (La. 1973). However, when such
evidence tends to prove a material issue and has independent
relevance other than showing that the defendant is of bad character, it
may be admitted by certain statutory and jurisprudential exceptions to
the exclusionary rule. State v. Aleman, 01-743 (La.App. 5 Cir.
1/15/02), 809 So.2d 1056, 1065.
La. C.E. art. 404(B)(1) provides:
Except as provided in Article 412, evidence of other
crimes, wrongs, or acts is not admissible to prove the
character of a person in order to show that he acted in
conformity therewith. It may, however, be admissible for
-14-

other purposes, such as proof of motive, opportunity,
intent, preparation, plan, knowledge, identity, absence of
mistake or accident, provided that upon request by the
accused, the prosecution in a criminal case shall provide
reasonable notice in advance of trial, of the nature of any
such evidence it intends to introduce at trial for such
purposes, or when it relates to conduct that constitutes an
integral part of the act or transaction that is the subject of
the present proceeding.
In order for other crimes evidence to be admitted, certain
requirements must be met. First, one of the above-enumerated factors
must be at issue, have some independent relevance, or be an element
of the crime charged in order for the evidence to be admissible. State
v. Jackson, 625 So.2d 146, 149 (La. 1993). Second, the State must
prove that the defendant committed the other acts by a preponderance
of the evidence. State v. Hernandez, 98-448 (La.App. 5 Cir. 5/19/99),
735 So.2d 888, 898-899, writ denied, 99-1688 (La. 11/12/99), 750
So.2d 194; Huddleston v. US., 485 U.S. 681, 685, 108 S.Ct. 1496,
1499, 99 L.Ed.2d 771 (1988). Third, the requirements for admission
of such evidence, set forth in State v. Prieur, 277 So.2d 126, 130 (La.
1973), must be met: Within a reasonable time before trial, the State
must furnish to the defendant a written statement of the acts or
offenses it intends to offer, describing same with the general
particularity required of an indictment or information. In the written
statement, the State must specify the exception to the general
exclusionary rule upon which it relies for the admissibility of the
evidence of other acts or offenses. Finally, the probative value of
such evidence must be weighed against its prejudicial effect. Slate v.
Lisotta, 97-406 (La.App. 5 Cir. 2/25/98), 712 So.2d 527, 530.
Additionally, the probative value of the extraneous evidence
must outweigh its prejudicial effect. State v. Maise, 759 So.2d at 894.
The burden is on the defendant to show that he was prejudiced by the
trial court’s admission of Prieur evidence. State v. Temple, 01-655
(La.App. 5 Cir. 12/12/01), 806 So.2d 697, 709. Absent an abuse of
discretion, a trial court's ruling on the admissibility of evidence
pursuant to La. C.E. art 404(B)(1) will not be disturbed. State v.
Williams, 02-645, p. 16 (La.App. 5 Cir. 11/26/02), 833 So.2d 497,
507, writ denied, 02-3182 (La. 4/25/03), 842 So.2d 398.
After reviewing the writ application, we find no abuse of the
trial court's discretion in this case. The application reflects that the
state had two primary justifications for introducing evidence of bad
acts into the record: (1) to prove that Relator had a motive to kill the
victim, and (2) to prove that Relator had the specific intent to kill or to
inflict great bodily harm upon the victim.
Contrary to Relator’s assertion, the trial court’s reliance on the
factually similar case of State v. Colbert, 2007-0947 (La.App. 4 Cir.
7/23/08), 990 So.2d 76.was not misplaced. In Colbert, the state
sought to introduce evidence of several bad acts or other crimes the
defendant committed before attempting to kidnap his ex-girlfriend and

killing his ex-girlfriend’s friend. The state allowed the defendant’s
ex-girlfriend to testify about incidents that occurred in the summer of
-15-

2003, even though the police were not called to respond to those
incidents.
The Fourth Circuit found no error in the trial court’s ruling
which allowed the state to introduce the evidence. According to
Jennifer Alexander (the defendant’s ex-girlfriend), the defendant
threatened to harm her and any man with whom he caught her, as is
the case here. Id. at 88. The defendant committed a series of prior
bad acts that were “all part of a pattern of the appellant’s obsession
with Ms. Alexander.” Id. The Fourth Circuit concluded that
“evidence of the prior incidents was relevant to show the appellant’s
intent to murder Jefferson as well as his motive for doing so.” Id.
The Fourth Circuit also concluded that the probative value of evidence
of the prior offenses far outweighed its prejudicial effect. Id.
We similarly conclude that evidence of bad acts or other crimes
the defendant committed prior to being charged with second-degree
murder are relevant to show intent and motive. We also conclude that
the probative value of evidence of the prior bad acts outweighs its
prejudicial effect.
State v. Snyder, 10-628 (La.App. 5 Cir. 8/20/10) (unpublished writ disposition),
writ denied, 10-2129 (La. 11/19/10), 49 So.3d 391.
On appeal, defendant presents essentially the same argument as he made in
his writ application. As noted previously, the State urges this Court to refuse
reconsideration under the “law of the case” doctrine.
Under the discretionary principle of “law of the case,” an appellate court
may refuse to reconsider its own rulings of law on a subsequent appeal in the same
case. State v. Burciaga, 05-357 (La.App. 5 Cir. 2/27/06), 924 So.2d 1125, 1128;
State v. Junior, 542 So.2d 23, 27 (La.App. 5 Cir. 1989), writ denied, 546 So.2d
1212 (La. 1989). The principle is applicable to all decisions of an appellate court;
not solely those arising from full appeal. State v. Johnson, 06-859 (La.App. 5 Cir.
4/11/07), 957 So.2d 833, 840. Reconsideration is warranted, however, when, in
light of a subsequent trial record, it is apparent that the determination was patently
erroneous and produced unjust results. In re K.R. W., Jr., 03-1371 (La.App. 5 Cir.
5/26/04), 875 So.2d 903, 905; State v. Davis, 03-488 (La.App. 5 Cir. 11/12/03),
861 So.2d 638,641, writ denied, 03-3401 (La. 4/2/04), 869 So.2d 874.

-16-

In this case, the record reflects that, at trial, witnesses, including Mary Beth
and several police officers, testified regarding five violent incidents that were the
subject of the Prieur hearing and subsequently reviewed by this Court.1’ Neither
our review nor defendant’s brief reveals any new facts adduced at trial that would
cast aspersions on this Court’s previous ruling. Further, defendant does not cite to
any statutory or jurisprudential authority that reveals that this Court’s prior
disposition was patently erroneous and produced an unjust result. Accordingly, in
this instance, we will consider our previous ruling on the trial court’s granting of
the State’s Prieur motion as the “law of the case” and decline reconsideration.
State v. Jones, 08-306 (La.App. 5 Cir. 10/28/08), 998 So.2d 173, 177, writ denied,
08-2895 (La. 9/4/09), 17 So.3d 947, cert, denied, 130 S.Ct. 1519, 176 L.Ed.2d 126
(2010); State v. Lande, 06-24 (La.App. 5 Cir. 6/28/06), 934 So.2d 280, 299, writ
denied, 06-1894 (La. 4/20/07), 954 So.2d 154; State v. Hollimon, 04-1195
(La.App. 5 Cir. 3/29/05), 900 So.2d 999, 1001.
In his final assignment of error, defendant argues that the trial court erred in
allowing the State to read defendant’s personal letters even though they were never
offered or intended to be introduced at trial. Specifically, defendant claims that he
was denied his right to present a defense when his cross-examination of Maiy Beth
Snyder was “stymied” by the trial court when the trial judge required him to
disclose Mary Beth’s letters to him, to the State. Defendant maintains that by '
ordering him to provide the subject “impeachment” letters to the State, defendant
was forced to stop questioning Mary Beth Snyder about her true motives in the

19 Those incidents were: (1) simple battery on March 11, 1995, when defendant caused Mary Beth’s head to
strike the interior window of his vehicle, causing injury; (2) aggravated battery in May of 1995, when defendant hit
Mary Beth in the leg with a baseball bat while she was sleeping; (3) assault in May of 1995, when defendant
threatened to “get rid of’ Mary Beth; (4) arrest for simple battery on June 11, 1995, when defendant pushed Mrs.
Snyder’s head through the sheetrock of their children’s bedroom; and (5) aggravated battery on June 18,1995, when
defendant disabled the electricity to Mary Beth’s parents’ house, illegally entered the house, and'stabbed Mary Beth
nine(9) times with a screwdriver, which required hospitalization.

-17-

case for fear that the trial court would require further revelation of the content of
additional letters in his possession.
In response, the State argues that defendant’s argument on appeal is not the
argument that defendant raised at trial, which precludes him from asserting this
issue. Specifically, the State contends that, at trial, when the letters were
discussed, defendant argued that his personal letters were protected from discovery
by the State, yet, on appeal, defendant argues that his right to confrontation was
violated because he had to stop questioning Mary Beth about her letters to avoid
having to disclose those letters to the State. Alternatively, the State argues that
defendant failed to proffer the questions it would have asked Mary Beth, and
therefore, is unable to show how his cross-examination was “stymied.”
During cross-examination of Mary Beth Snyder, defense counsel asked her
if she had communicated with the defendant since 1996, and Mary Beth replied
that she had spoken to him over the phone and had written letters to him. Defense
counsel questioned Mary Beth about her intent and state of mind when she wrote
to defendant then read small excerpts from two documents. The State vociferously
objected to defense counsel reading to the jury from a document that had neither
been authenticated nor previously disclosed to the prosecution. The trial judge
admonished defense counsel not to read from the documents.
Immediately thereafter, the prosecution objected to the use of the purported
letters from Mary Beth, based on defense counsel’s failure to disclose the letters to
the prosecutor through the State’s request for discovery. The State requested an in
camera inspection of the documents by the trial judge to determine if the letters
contained evidence that the State may be entitled to discover regarding Mary
Beth’s state of mind when she wrote the letters. After reviewing two separate
letters that defense counsel had referenced while cross-examining Mary Beth
-18-

Snyder, the trial judge ruled that, although defense counsel may not intend to
introduce the letters, the letters contained information regarding Mary Beth
Snyder’s state of mind that the State was entitled to know “to conduct a
meaningful redirect examination.”
In response to the trial judge’s ruling, defense counsel informed the trial
judge during a bench conference, “given the court’s prior ruling regarding the two
letters, the 1998 letter and the 1999 letter authored by Mrs. Snyder and sent to Mr.
Snyder, I would have had additional questions regarding additional letters written
by her but given the court’s ruling, I’m going to stop any questioning along the
lines of those letters.” Defense counsel revealed that he was declining further
cross- examination on the letters to avoid the risk of the trial judge ordering the
defense team to “turn over the letters[,j which are not discoverable in our opinion.”
The trial judge noted, “None of my rulings prevented [defense counsel] from
asking your questions as it relates to the letters as of this point in time. I mean , we
had the court reporter review the brief series of questions [defense counsel] asked
about and you were allowed to do that.” When the prosecutor suggested that
defense counsel proffer the questions that he was choosing not to ask Mary Beth
because “the appellate court might want to know what... those questions [are] ...
that they’ve been denied the opportunity to ask,” defense counsel “declined.
First, we note that a defendant is limited on appeal to those grounds
articulated at trial. State v. Styles, supra. Here, defendant articulated an
evidentiary basis for his objection at trial yet raises different grounds on appeal. A
new basis for a claim, even if it would be meritorious, cannot be raised for the first
time on appeal. State v. Jackson, 04-1388 (La.App. 5 Cir. 5/31/05), 904 So.2d
907, 911, writ denied, 05-1740 (La. 2/10/06), 924 So.2d 162. Thus, we find that
this issue was not preserved for appeal.
-19-

Furthermore, even if the claim had been properly raised in the trial court, the
defendant failed to proffer the substance of the “excluded evidence,” and, thus,
failed to preserve the issue for review by this Court. “Error may not be predicated
upon a ruling which ... excludes evidence unless a substantial right of the party is
affected, and ... the substance of the evidence was made known to the court by
counsel.” La. C.E. art. 103(A)(2). “This can be effected by proffer, either in the
form of a complete record of the excluded testimony or a statement describing
what the party expects to establish by the excluded evidence.” State v. Magee, 11 0574 (La. 9/28/12), 103 So.3d 285, 326.
This Court has consistently held that when a defendant does not make
known the substance of the excluded evidence for the purpose of consideration by
the trial and appellate court, the alleged error is not preserved for review on appeal.
See, State v. Massey, 11-358 (La.App. 5 Cir. 3/27/12), 97 So.3d 13, writ denied,
12-0993 (La. 9/21/12), 98 So.3d 332 (this Court held that defendant failed to show
that the trial judge’s exclusion affected a substantial right >vhere he made no
showing of how the excluded testimony was relevant and material to the defense
and the record was devoid of any proffer regarding the excluded testimony or the
reasons for its admissibility); State v. Thompson, 12-409 (La.App. 5 Cir. 12/11/12),
106 So.3d 1102, 1109-10 (defendant chose not to proffer witness’ testimony and
did not make known the substance of the excluded evidence so this Court held
defendant failed to preserve the excluded testimony for appeal by failing to object
and failing to proffer the evidence). Here, defendant failed to make known the
substance of the allegedly excluded evidence and failed to show that the alleged
exclusion affected a substantial right. Accordingly, this issue was not preserved
for appeal.

-20-

Error patent review
Finally, as is our customary practice, we have reviewed the record for errors
patent, pursuant to La. C.Cr.P. art. 920, and found none requiring corrective action.
Conclusion
In conclusion, we find no merit in defendant’s arguments on appeal.
Defendant’s conviction and sentence are hereby affirmed.

AFFIRMED

;

-21-

